<html>
<title> - HARNESSING AMERICAN RESOURCES TO CREATE JOBS AND ADDRESS RISING GASOLINE PRICES: IMPACTS ON SENIORS, WORKING FAMILIES AND MEMORIAL DAY VACATIONS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                          HARNESSING AMERICAN
                       RESOURCES TO CREATE JOBS
                      AND ADDRESS RISING GASOLINE
                      PRICES: IMPACTS ON SENIORS,
                         WORKING FAMILIES AND
                        MEMORIAL DAY VACATIONS

=======================================================================

                           OVERSIGHT HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                        Wednesday, May 25, 2011

                               __________

                           Serial No. 112-34

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
66-650                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0a6d7a654a697f797e626f667a2469656724">[email&#160;protected]</a>  

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, May 25, 2011..........................     1

Statement of Members:
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado..........................................     1
        Prepared statement of....................................     2
    Markey, Hon. Edward J., a Representative in Congress from the 
      State of Massachusetts.....................................     3
        Prepared statement of....................................     5

Statement of Witnesses:
    Anderson, Pamela, Operations Manager, Capt. Anderson's 
      Marina, Panama City Beach, Florida.........................    14
        Prepared statement of....................................    16
    Borelli, Deneen, Project 21 Fellow, National Center for 
      Public Policy Research.....................................     6
        Prepared statement of....................................     7
    Martin, James L., Chairman, The 60 Plus Association, 
      Alexandria, Virginia.......................................    10
        Prepared statement of....................................    12
    Sloan, Andrew, Fellow, Truman National Security Project......    17
        Prepared statement of....................................    18

Additional materials supplied:
    Article entitled ``High gas prices change the way unemployed 
      look for jobs'' submitted for the record...................    47

                                     



OVERSIGHT HEARING ON ``HARNESSING AMERICAN RESOURCES TO CREATE JOBS AND 
 ADDRESS RISING GASOLINE PRICES: IMPACTS ON SENIORS, WORKING FAMILIES 
                     AND MEMORIAL DAY VACATIONS.''

                              ----------                              


                        Wednesday, May 25, 2011

                     U.S. House of Representatives

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 10:11 a.m. in Room 
1324, Longworth House Office Building, Hon. Doug Lamborn 
[Acting Chairman of the Committee] presiding.
    Present: Representatives Lamborn, Gohmert, Bishop, Wittman, 
Fleming, Coffman, McClintock, Rivera, Duncan, Tipton, 
Southerland, Flores, Harris, Landry, Runyan, Johnson, Markey, 
DeFazio, Bordallo, Lujan, and Garamendi.
    The Chairman. Now for purposes of an oversight hearing, the 
Committee will come to order. The Chairman notes the presence 
of a quorum, which under Rule 3[e] is two Members. The 
Committee on Natural Resources is meeting today to hear 
testimony on ``Harnessing American Resources to Create Jobs and 
Address Rising Gasoline Prices: The Impacts on Seniors, Working 
Families and Memorial Day Vacations.'' Under Committee Rule 
4[f], opening statements are limited to the Chairman and 
Ranking Member. However, I ask unanimous consent to include any 
other Members' opening statements in the hearing record if 
submitted to the Clerk by close of business today. Hearing no 
objection, so ordered. And now I recognize myself for five 
minutes.

 STATEMENT OF HON. DOUG LAMBORN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    The Chairman. The national average price of gasoline 
continues to hover near $4 per gallon, causing even greater 
financial pain as the summer driving season begins. This 
weekend families across the country will be celebrating 
Memorial Day, a holiday that is frequently marked by loading up 
the car and taking an extended weekend trip to the beach, a 
national park, or perhaps a trip to the grandparents' house for 
a barbecue.
    This year, however, more Americans will be staying home due 
to rising and escalating gasoline prices. According to the AAA, 
40 percent of Americans said that high gasoline prices will 
impact their Memorial Day vacation plans. This decline in 
travel has ripple effects throughout the entire economy. 
Hotels, restaurants, recreational facilities, marinas, and 
other service industries will all feel the impact of fewer 
vacationers.
    Unfortunately, annual family vacations are not the only 
tradeoff having to be made due to rising gasoline prices. 
Seniors are often hit the hardest, since even a slight increase 
in prices can seriously squeeze those who are living on an 
already tight fixed income. According to the Associated Press, 
over 76 percent of seniors are experiencing financial hardship 
over gasoline prices, up from 68 percent just in March.
    The AP also reported how some seniors are cutting back on 
medicine in order to fill up their cars. For example, Nettie 
Cash from Georgia is forgoing her inhaler and ulcer medicine in 
order to pay for gasoline. These are simply choices that 
Americans shouldn't have to make, not in a nation holding the 
most resources of any in the world. This is the third hearing 
the Natural Resources Committee has held examining the impacts 
of high gasoline prices and how we can harness our own American 
energy resources to help ease the pain at the pump.
    We have heard from expert witnesses about America's vast 
energy supplies, and it frankly makes no sense that there are 
policies in place enforced by the Obama Administration that 
keep them under lock and key. The International Energy Agency 
last week called for increased oil production to prevent 
further economic damage to importing countries, which includes 
the United States. There is no reason why we shouldn't already 
be increasing production. We need a long-term plan to 
significantly increase our domestic oil and natural gas 
supplies.
    I am pleased that the House has already passed three 
bipartisan bills to do just that, to increase domestic 
production. It is time for the President and the Senate to step 
up to the plate and do likewise. In a recent weekly address, 
President Obama appeared to be finally supporting the need for 
increased oil production as part of a solution to high gasoline 
prices. Indeed, his speech was a far cry from 2008 when then-
candidate Obama said ``If I thought that by drilling offshore 
we could solve our problem, I would do it.''
    Now if President Obama has truly flipped positions, then I 
welcome his steps in the right direction, even if they are only 
small steps. However, I am not convinced that we have heard 
anything more from the President than just more rhetoric, 
although I hope I am wrong on that score. It is one thing to 
say we need increased oil production, and it is quite another 
to actually implement policies and issue the permits that allow 
for increased production.
    It is my hope that both the Senate and the President will 
support our efforts in the House to allow for new drilling off 
the Atlantic and Pacific coasts where we have the most oil and 
natural gas resources. Doing so will dramatically increase U.S. 
production, reduce imports by one-third, and create up to 1.2 
million American jobs long term. Regardless of the latest price 
of gasoline, we have a fundamental need to develop our own 
American energy resources. It has been put off for far too 
long, thus jeopardizing both our economy and our national 
security. I want to thank all our witnesses for being here 
today and I look forward to hearing your testimony.
    [The prepared statement of Mr. Lamborn follows:]

          Statement of The Honorable Doug Lamborn, Chairman, 
              Subcommittee on Energy and Mineral Resources

    The national average price of gasoline continues to hover near $4 
per gallon, causing even greater financial pain as the summer driving 
season begins. This weekend, families across the country will be 
celebrating Memorial Day--a holiday that's frequently marked by loading 
up the car and taking an extended weekend trip to the beach, a national 
park, or perhaps a trip to the grandparents' house for an outdoor 
barbeque. This year however, more Americans will be staying home due to 
escalating gasoline prices.
    According to AAA, 40 percent of Americans said that high gasoline 
prices will impact their Memorial Day vacation plans. This decline in 
travel has ripple effects throughout the entire economy. Hotels, 
restaurants, recreational facilities, marinas, and other service 
industries will all feel the impact of fewer vacationers.
    Unfortunately, annual family vacations are not the only trade-off 
having to be made due to rising gasoline prices. Seniors are often hit 
the hardest since as even a slight increase in prices can seriously 
squeeze those living on an already tight, fixed income.
    According to the Associated Press, over 76 percent of seniors are 
experiencing financial hardship over gasoline prices -up from 68 
percent in March.
    The AP also reported how some seniors are cutting back on medicine 
in order to fill up their cars. For example, Netti Cash from Georgia is 
forgoing her inhaler and ulcer medicine in order to pay for gasoline.
    These are simply choices that Americans shouldn't have to make, not 
in a nation holding the most resources of any in the world.
    This is the third hearing the Natural Resources Committee has held 
examining the impacts of high gasoline prices and how we can harness 
our own American energy resources to help ease the pain at the pump.
    We've heard from expert witnesses about America's vast energy 
supplies and it frankly makes no sense that there are policies in 
place, enforced by the Obama Administration, that keep them under lock-
and-key.
    The International Energy Agency last week called for increased oil 
production to prevent further economic damage to importing countries--
which includes the United States. There's no reason why we shouldn't 
already be increasing production. We need a long-term plan to 
significantly increase our domestic oil and natural gas supplies.
    I'm pleased that the House has already passed three bipartisan 
bills to do just that. It's time for the President and the Senate to 
step up to the plate and do likewise.
    In a recent weekly address, President Obama appeared to be finally 
supporting the need for increased oil production as part of a solution 
to high gasoline prices. Indeed, his speech was a far cry from 2008 
when then-candidate Obama said, ``If It thought that by drilling 
offshore, we could solve our problem, I'd do it.''
    If President Obama has truly flipped positions, than I welcome his 
small steps in the right direction. However, I'm not convinced we've 
heard anything more from the President than just more rhetoric. It's 
one thing to say we need increased oil production and it's quite 
another to actually implement policies and issue the permits that allow 
for increased production.
    It's my hope that both the Senate and the President will support 
our efforts in the House to allow for new drilling off the Atlantic and 
Pacific coasts where we have the most oil and natural gas resources. 
Doing so will dramatically increase U.S. production, reduce imports by 
one-third and create up to 1.2 million American jobs long-term.
    Regardless of whether gasoline prices are up or down, it does not 
change the fundamental need to develop our own American energy 
resources. It's been put off for far too long--jeopardizing both our 
economic and national security.
    I want to thank all the witnesses for being here today and look 
forward to hearing your testimony.
                                 ______
                                 
    The Chairman. Now I recognize the Ranking Member for five 
minutes for his opening statement.

    STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. Markey. Thank you, Mr. Chairman, very much. Our economy 
is finally starting to pick up speed, but high gas prices have 
the potential to hit the brakes on our recovery. Economists 
have a general rule of thumb that each $10 increase in the 
price of a barrel of oil reduces the growth rate of the economy 
by two-tenths to three-tenths of a percentage point. A recent 
University of California San Diego analysis concluded that all 
but one of the eleven post-World War II recessions were 
associated with an increase in oil.
    If American consumers have to dig deeper into their wallets 
to pay for gas, we could be in for a double-dip recession. 
American families and businesses want real solutions, not 
bumper sticker slogans. They want lower prices, more choices, 
and a reduced dependence on foreign oil. The Republican claim 
that more drilling will lower prices has proven to be a myth. 
In fact, U.S. oil production is currently at its highest level 
since 2003.
    The average national price for a gallon of regular gasoline 
the week before Memorial Day in 2003 was $1.44. It is now 
$3.85. But the Republican plan is to drill off our beaches and 
in our most pristine wildlife refuges. According to the Energy 
Information Administration, Republicans plan to put rigs off of 
Cape Cod in Massachusetts, off of the Outer Banks in North 
Carolina, and off of California; and that would reduce gas 
prices by only 3 cents per gallon in the year 2030.
    And drilling in the Arctic National Wildlife Refuge, the 
crown jewel of our refuge system, will reduce gas prices by 
about 2 cents over that same time period. That means that the 
totality of the Republican ``Drill, Baby, Drill'' plan could 
save consumers a total of $14 per year at the pump when it is 
fully implemented, all while risking our tourism, fishing, and 
other industries that are vital to the economies of our coastal 
states. And even while getting that 5 cents a gallon savings, 
that $14 a year is completely reliant upon the naive hope that 
somehow Saudi Arabia, Kuwait, and the rest of OPEC will refrain 
from curtailing their production in order to keep prices high.
    The Republican plan is a one-note song and it isn't even a 
one-hit wonder. Let us look at the Democratic proposals in 
2007. The Democratic Congress passed the first fuel economy 
increases in 32 years, and President Obama has now accelerated 
those standards. With just this one improvement, the average 
driver is going to save nearly $400 a year, that is $400 less 
to the oil companies, $400 more toward books for their kids, 
medicine for their health, and savings for retirement. The 
Obama Administration is also pushing to go farther with new 
fuel efficiency standards so Americans can go farther on each 
tank of gas.
    The Administration has announced the plan to continue 
raising efficiency standards, which could save consumers an 
additional $450 every year at the pump. And those savings for 
consumers don't even include the impact of electric vehicles 
and other alternative fuel vehicles that will offer consumers 
choice and break oil companies' monopolies on our economy. If 
you can go the same distance on $4 of gasoline or 75 cents of 
electricity, what do you think consumers will opt for? And in 
legislation which the Republicans have already passed this 
year, they want to tie the hands of the EPA and their ability 
to be able to improve those fuel efficiency standards.
    So even though we know this is a central area where we can 
make tremendous progress, the Republicans have already passed 
legislation that will tie the hands of EPA to increase those 
fuel economy standards. They are doing the same thing with the 
Commodities Futures Trading Commission, trying to cut their 
budget, even as we know according to Goldman Sachs that upwards 
of $20 of the increase in the price of a barrel of oil is 
related to speculation.
    The Republicans are trying to cut the cops on the beat that 
will be policing this commodities marketplace where the New 
York Mercantile Exchange has turned into a crude oil casino. We 
can't take the cops off the beat. We have to have those 
speculation cops on the beat. The Republicans cut that budget, 
and they cut the budget to increase the fuel economy standards 
for the vehicles we drive. It is just the wrong policy for our 
country. I yield back the balance of my time.
    The Chairman. OK, thank you. We will now hear from our 
witnesses. And I would like to invite Deneen Borelli from the 
National Center for Public Policy Research, Project 21, to the 
table, Jim Martin of 60 Plus Association, Pam Anderson, the 
Operations Manager of Captain Anderson's Marina, and Drew 
Sloan, a Fellow at the Truman National Security Project.
    Now like all witnesses your written testimony will appear 
in full in the hearing testimony record, so I ask that you keep 
your oral statements to five minutes as outlined in the 
invitation letter you received. Our microphones are not 
automatic, you will have to push the button to activate them. 
And the timing lights work such that in the last minute the 
light goes yellow and turns red when your testimony needs to be 
completed. At this point, Ms. Borelli, I would ask that you 
begin. Thank you for being here.
    [The prepared statement of Mr. Markey follows:]

     Statement of The Honorable Edward J. Markey, Ranking Member, 
                     Committee on Natural Resources

    Our economy is finally starting to pick up speed, but high gas 
prices have the potential to hit the brakes on our recovery.
    Economists have a general rule of thumb that each $10 increase in 
the price of a barrel of oil reduces the growth rate of the economy by 
0.2 to 0.3 percentage points. A recent UC San Diego analysis concluded 
that ``all but one of the 11 postwar recessions were associated with an 
increase in the price of oil.''
    If American consumers have to dip deeper into their wallets to pay 
for gas, we could be in for a double-dip recession.
    American families and businesses want real solutions not bumper 
sticker slogans. They want lower prices, more choices, and a reduced 
dependence on foreign oil.
    The Republican claim that more drilling will lower prices has 
proven to be a myth. In fact, U.S. oil production is currently at its 
highest levels since 2003. The average national price for a gallon of 
regular gasoline the week before Memorial Day in 2003 was $1.44. It is 
now $3.85.
    But the Republican plan is still to drill more. It is to drill off 
our beaches and in our most pristine wildlife refuges.
    According to the Energy Information Administration, the Republican 
plan to put drill rigs off of Cape Cod in Massachusetts, off of the 
Outer Banks in North Carolina and off of California would reduce gas 
prices by ONLY 3 cents per gallon in the year 2030.
    And drilling in the Arctic National Wildlife Refuge--the crown 
jewel of our refuge system--will reduce gas prices by about 2 cents 
over the same time period.
    That means that the totality of the Republican drill, baby, drill 
plan could save consumers a total of $14 per year at the pump when it 
is fully implemented. All while risking our tourism, fishing and other 
industries that are vital to the economies of our coastal states. And 
even getting that 5 cents a gallon savings--that $14 bucks a year, is 
completely reliant on the naive hope that somehow Saudi Arabia, Kuwait, 
and the rest of OPEC will refrain from curtailing their production in 
order to keep prices high.
    The Republican plan is a one-note song, and it isn't even a one-hit 
wonder.
    Now let's look at the Democratic proposals. In 2007, the Democratic 
Congress passed the first fuel economy increases in 32 years and 
President Obama has now accelerated those standards.
    With just this one improvement, the average driver is going to save 
nearly $400 a year. That's $400 less to the oil companies, and $400 
more towards books for their kids, medicine for their health, and 
savings for retirement.
    The Obama administration is also pushing to go farther with new 
fuel efficiency standards so Americans can go farther on each tank of 
gas. The administration has announced a plan to continue raising 
efficiency standards, which could save consumers an additional $450 
every year at the pump.
    And those savings for consumers don't even include the impact of 
electric vehicles and other alternative-fueled vehicles that will offer 
consumers choice and break oil's monopoly on our economy. If you can go 
the same distance on $4 of gasoline or 75 cents of electricity, what do 
you think consumers will opt for?
    Democrats have also passed financial reform legislation that would 
finally crack down on the speculators who are driving the price of oil 
up.
    Speculators have turned Wall Street into a crude oil casino. 
Goldman Sachs has said that speculation in the marketplace has 
contributed to $20 or more per barrel of oil. That means there is a 
roughly 33 cent speculation tax added onto every gallon of gas.
    Getting rid of this speculation tax could save consumers another 
$145 dollars this year.
    But what has been the Majority's response? The Majority has 
authored legislation that would jeopardize new fuel efficiency 
improvements by unilaterally disarming the EPA. The Republican majority 
has voted to cut the budget to the Commodities Future Trading 
Commission and take the speculation cops off the beat. And the Majority 
has cut the budget for alternatives to oil by 70 percent while leaving 
in place billions of dollars in tax breaks for oil companies.
    So in total, the Democratic plan could save consumers about $1,000 
a year at the pump, compared with the Republican plan, which could save 
consumers $14 dollars.
    As we head into the summer driving season with prices once again 
rising, it is time we start talking about solutions that will really 
save consumers money--increasing fuel economy and ending speculation--
and stop talking about giveaways to oil companies.
    I look forward to hearing the testimony of the witnesses today on 
these important pocketbook issues to all Americans.
                                 ______
                                 

STATEMENT OF DENEEN BORELLI, PROJECT 21 FELLOW, NATIONAL CENTER 
                   FOR PUBLIC POLICY RESEARCH

    Ms. Borelli. Thank you very much for this opportunity to 
testify today. My name is Deneen Borelli, I am a full-time 
Fellow with Project 21, Freedom Works Fellow, and a Daily 
Caller columnist. Sadly, our country's natural resources are 
under assault by environmentalists, business interests, and 
progressive politicians. Their plan is to raise the price of 
fossil fuels to make renewable energy economically competitive. 
This is a bad plan for our economy, jobs, and hardworking 
Americans.
    Affordable energy is the lifeblood of our economy and a 
primary driver of the quality of life for all Americans. Many 
Americans are facing significant financial difficulties due to 
soaring energy costs and rising food prices. A USA Today Gallup 
poll found that 7 in 10 Americans said high gasoline prices are 
bringing about financial hardships. Lower income families are 
hardest hit by soaring energy prices. A recent study concluded 
that lower income households are paying nearly a quarter of 
their income for energy costs.
    High energy prices are now reverberating throughout our 
economy. WalMart, the nation's largest retailer, and Lowes, a 
home improvement chain, cited higher gasoline prices as a cause 
of disappointing sales. Tragically, President Obama's energy 
policy is contributing to the economic pain. Instead of having 
a policy that takes advantage of our abundant supply of 
domestic natural resources, oil, coal, and natural, gas, which 
currently provide about 85 percent of our energy needs, the 
President is waging a war on fossil fuels.
    The President's energy policy is to discourage the use of 
fossil fuels through regulations that raise the cost of their 
use and to reduce supply by blocking development of our natural 
resources. President Obama needs soaring fossil fuel prices to 
make renewable energy costs competitive. This would be to meet 
his goal of generating 80 percent of electricity from clean 
energy by 2035. It is a command and control energy policy where 
the Federal Government takes an active role in picking winners 
and losers in the energy sector.
    Disturbingly, this dual strategy will indeed make energy 
prices skyrocket while stifling economic growth and driving 
jobs overseas. The winners in President Obama's energy policy 
are the well connected corporate and social elite, while the 
losers are the hardworking Americans. It is a wealth transfer 
mechanism from hardworking Americans to the pockets of 
corporate heads and billionaire investors who want to profit 
from renewable energy. The President's hostility toward fossil 
fuels is well documented.
    While running for President, then Senator Obama said his 
cap and trade energy policy would make electricity rates 
skyrocket. After cap and trade failed in the Senate, President 
Obama merely shifted gears to assert his anti-fossil fuel 
agenda by allowing the EPA to regulate greenhouse gas emissions 
under the Clean Air Act. Following the deep water drilling 
moratorium in the Gulf of Mexico, the approval process for 
drilling permits has been extremely slow.
    According to the Energy Information Administration the 
decrease in domestic production this year was estimated at 
200,000 barrels per day. And as a result of the uncertainty 
surrounding the drilling approvals, seven deep water rigs have 
left the Gulf of Mexico and with them a number of high paying 
jobs. To lower energy costs, grow our economy, and become 
energy independent, we need new policies that will encourage 
the development of our own natural resources. According to the 
Congressional Research Service, the U.S. has more than an 
abundant supply of fossil fuels than any other country. For 
example, the U.S. has an estimated 163 billion barrels of 
recoverable oil.
    Importantly, the American people support development of our 
natural resources. According to Rasmussen Reports, 67 percent 
now support offshore drilling. There is something terribly 
wrong when the corporate and social elite can use the power of 
government to advance their narrow interests while harming the 
standard of living of hardworking Americans, denying us our 
right to life, liberty, and the pursuit of happiness. The 
powerful few should not block the will of the people. Thank 
you.
    [The prepared statement of Ms. Borelli follows:]

            Statement of Deneen Borelli, Project 21 Fellow, 
               National Center for Public Policy Research

    Thank you for the opportunity to testify today.
    My name is Deneen Borelli. I'm a full-time Fellow with Project 21, 
a black conservative public policy group; a Fellow with FreedomWorks 
and a Daily Caller columnist. In my work I promote the importance of 
limited government and personal responsibility as the key to personal 
success and social advancement.
    Sadly, our country's natural resources are under assault by 
environmentalists, business interests and progressive politicians. 
Their plan is to raise the price of fossil fuels to make renewable 
energy sources more economically competitive.
    This is a bad plan for our economy, jobs and hardworking Americans.
    Affordable energy is the life blood of our economy and, 
consequently, a primary driver of the quality of life for all 
Americans.
    Today many Americans are facing significant financial difficulties 
due to soaring energy costs. Skyrocketing gasoline prices are 
especially burdensome for hardworking American families whose budgets 
are also being squeezed from rising food prices.
    According to AAA's Fuel Gauge Survey, the national average of self-
serve regular gasoline is about $3.886--that is about double the price 
per gallon at $1.838 when President Obama was sworn into office.
    Recent public opinion polls and news stories have documented the 
impact of rising energy prices on Americans. A recent USA Today/Gallup 
Poll found 7 in 10 Americans said high gasoline prices are bringing 
about financial hardships for them and just over 20 percent said their 
standard of living is in danger because of the higher prices at the 
pump.
    A Washington Post/ABC poll in April also found that 7 in 10 said 
their families were suffering financial hardships because of high 
gasoline prices.
    Naturally, middle- and lower-income families are hardest hit by 
soaring energy prices. A study prepared by Eugene M. Trisko, Esquire, 
on behalf of the American Coalition of Clean Coal Electricity concluded 
that:
        <bullet>  Lower-income households are paying nearly a quarter 
        of their income for energy costs. The 27 million lower-income 
        households earning between $10,000 and $30,000, representing 
        23% of U.S. households, will allocate 23% of their 2011 after-
        tax income to energy, more than twice the national average of 
        11%.
        <bullet>  Household gasoline costs have more than doubled in 
        the past ten years, from an average of $1,680 in 2001 to a 
        projected $3,601 in 2011. Increased gasoline costs account for 
        75% of the $2,562 average household energy cost increase since 
        2001.
        <bullet>  Minority households are disproportionately impacted 
        by higher energy costs. In 2009, 62% of Hispanic households and 
        67% of black households had average annual incomes below 
        $50,000, compared with 46% of white households and 39% of Asian 
        households. Energy costs represent a much larger fraction of 
        disposable income for households earning less than $50,000 than 
        for wealthier families. Due to these income inequalities, the 
        burdens of energy price increases are imposed 
        disproportionately on black and Hispanic households.
    CNNMoney recently reported that the average American household 
spent about $368 on fuel in April. That amount is more than twice than 
what U.S. households spent two years ago and it represents about 9 
percent of their total monthly income.
    The sobering poll and economic data predicted from high energy 
prices referenced above is now reverberating through our economy. Wal-
Mart, the nation's largest retailer, and Lowe's, a home improvement 
chain, cited higher gasoline prices as the cause of disappointing 
sales. Both companies said consumer traffic was down in their stores.
    Big retailers are not the only causality of high gas prices. 
According to a poll by DollarDays.com, a wholesale distributor, more 
than 64 percent of small business owners attribute high gas prices to a 
drop in revenue and more than 25 percent are concerned they will have 
to lay off workers if prices stay high.
    The impact of high gas prices on disposable income was summarized 
by an economist for the National Federation of Independent Businesses, 
``If all your customers are paying $50 for a tank of gas that they used 
to pay $25 for, somebody is not getting that $25.''
    With unemployment hovering at 9 percent and economic growth 
sluggish, our country can't afford to have the high costs of energy put 
our economy in reverse.
    Tragically, President Obama's energy policy is contributing to the 
economic pain being experienced by hardworking American families. 
Instead of having a policy that would take advantage of our abundant 
supply of domestic natural resources--coal, oil and natural gas, which 
currently provide about eighty-five percent of our energy needs--the 
President is waging a war on fossil fuels.
    The President's energy policy is to discourage the use of fossil 
fuels through regulations that raise the cost of their use and to 
reduce supply by blocking natural resource exploration and extraction.
    Disturbingly, this duel strategy will indeed make energy prices 
``skyrocket'' while stifling economic growth, driving jobs overseas.
    By forcing the cost of traditional forms of energy higher, 
President Obama wants to make renewable energy sources cost 
competitive. It's a command-and-control energy policy where the federal 
government takes an active role in picking energy winners and losers.
    Instead of adopting an energy policy that takes advantage of the 
reliability, affordability and availability of fossil fuel based 
energy, the President is advancing a renewable energy strategy that 
includes generating 80 percent of electricity from clean energy sources 
by 2035.
    The winners in President Obama's energy policy are the well-
connected corporate and social elite while the losers are the 
hardworking Americans who will have to suffer the economic consequences 
of higher energy prices, slower economic growth and jobs moving 
overseas.
    It's fundamentally a wealth transfer mechanism from the middle- and 
lower-income households to the pockets of corporate heads and 
billionaire investors who want to profit from renewable energy.
    The President's hostility toward fossil fuels is well documented.
    While running for President, then-Senator Obama said his cap-and-
trade energy policy would make electricity prices ``necessarily 
skyrocket'' and it would ``bankrupt'' power plants that use coal as an 
energy source.
    The goal of higher energy prices is also shared by Energy Secretary 
Steven Chu. In 2008, Secretary Chu said, ``Somehow we have to figure 
out how to boost the price of gasoline to the levels in Europe.''
    After cap-and-trade failed to pass in the Senate, President Obama 
merely shifted gears to reassert his anti-fossil fuel agenda through 
the executive branch. In an interview with Rolling Stone Magazine last 
September, President Obama said, ``One of my top priorities next year 
is to have an energy policy that begins to address all facets of our 
overreliance on fossil fuels. We may end up having to do it in chunks, 
as opposed to some sort of comprehensive omnibus legislation.''
    Delivering on his promise to execute his agenda in ``chunks,'' 
President Obama is wielding his executive powers to discourage the use 
of fossil fuels by allowing the EPA to regulate greenhouse gas 
emissions under the Clean Air Act.
    By cracking down on emissions such as carbon dioxide, which is 
released when fossil fuels are burned, EPA regulations would raise the 
price of energy with a particularly devastating effect on coal-fired 
electricity generation. Coal is a cheap and abundant natural resource 
that currently provides about half of our country's electricity.
    The Obama Administration is also impeding the ability of energy 
companies to develop our country's natural resources.
    Following the deepwater drilling moratorium in the Gulf of Mexico, 
the approval process for drilling permits has been extremely slow. It 
took four months for the first drilling permit to be approved following 
the end of the moratorium and the rate of approvals remains 
unacceptably slow.
    The reduction in oil production as a result of the Obama 
Administration cracking down on drilling permits is significant. 
According to the Energy Information Administration, the decrease in 
domestic production this year was estimated to be about 200,000 barrels 
per day and that production falloff is expected to continue through 
2012.
    As a result of the uncertainty surrounding the drilling approvals, 
seven deepwater rigs have left the Gulf of Mexico and with them a 
number of high paying jobs.
    The Obama Administration's assault on oil drilling is not 
restricted to the Gulf of Mexico. The EPA recently refused to issue air 
permits to allow Shell Oil Company to continue with an exploration 
project off the northern coast of Alaska. The company has spent about 
$4 billion in leases and exploration costs in an effort to produce an 
estimated 27 billion barrels of oil.
    The EPA's hostility towards fossil fuel development is not 
restricted to oil production. The agency's approval of coal mining 
permits is extremely slow, and, in unprecedented action, the EPA 
revoked a mining permit for Arch Coal after it had been issued. The 
company said the EPA's action would block an estimated $250 million 
investment in the project that would have created 250 jobs.
    Unfortunately, President Obama's dislike of fossil fuels is 
restricted only to our country. While in Brazil in March, Obama 
promoted an offshore drilling project in Brazil for which, he said, the 
U.S. would ``. . .be one of your best customers'' and ``. . .the United 
States could not be happier with the potential for a new, stable source 
of energy.''
    Clearly, ``We the People'' would be much happier if our President 
would allow us to have the same opportunity to develop the natural 
resources in the U.S. and not in Brazil.
    To lower energy costs for all Americans, grow our economy and 
become energy independent, we need a new energy policy that will 
encourage the development of our own natural resources.
    According to the Congressional Research Service (CRS), the U.S. has 
more abundant sources of fossil fuels than any other country. The CRS 
reported:
        <bullet>  The U.S. has an estimated 163 billion barrels of 
        recoverable oil.
        <bullet>  The U.S. has an estimated 2,047 trillion cubic feet 
        of natural gas.
        <bullet>  The U.S. has an estimated 262 billion short tons of 
        coal.
    A study by Wood Mackenzie estimated the economic impact of giving 
the energy industry access to U.S. oil and natural gas resources that 
are currently unavailable. The study estimated that the industry would 
create 530,000 jobs and provide $150 billion in revenue (tax, royalty 
and other sources) to the government by 2025.
    Just imagine the amount of economic growth that could be generated 
if the federal government had an energy policy that allowed industry to 
develop the stunning amount of natural resources cited in the CRS 
study.
    Importantly, the American people support development of our natural 
resources.
    According to Rasmussen Reports:
        <bullet>  50 percent of adults believe the United States should 
        produce more domestic oil by allowing drilling in the Arctic 
        National Wildlife Refuge (ANWR);
        <bullet>  67 percent now support offshore oil drilling, the 
        highest level of support since the BP leak erupted in the Gulf 
        of Mexico and;
        <bullet>  76 percent of voters say the United States doesn't do 
        enough to develop its own gas and oil resources.
    Clearly, President Obama's anti-fossil fuel energy policy is on a 
collision course with the attitudes of the majority of Americans.
    The President needs to shake loose from the corporate and 
environmental activist special interest groups that have influenced his 
policy and reverse course and adopt a pro-growth energy strategy.
    There is something terribly wrong when the corporate and social 
elite can use the power of government to advance their narrow interests 
while harming the standard of living of hardworking Americans, denying 
us our right to ``life, liberty and the pursuit of happiness.''
    Seventy-six percent of voters believe the U.S. is not doing enough 
to develop our own natural resources. The powerful few should not block 
the will of the people.
                                 ______
                                 
    The Chairman. OK, and thank you. Mr. Martin, thanks for 
being here and you may give your testimony.

             STATEMENT OF JAMES MARTIN, CHAIRMAN, 
                    THE 60 PLUS ASSOCIATION

    Mr. Martin. Thank you, Mr. Chairman. I have submitted a 
statement for the record, so I would like to make a few 
observations. 60 Plus is a nonprofit organization. We present 
awards to Democrats and Republicans alike, and we call on about 
7 million seniors for support. You know, it seems like 
yesterday I came here, actually 49 years ago in 1962, as a 
reporter covering Congress, so long ago that Neil Armstrong had 
not yet walked on the moon, Jack Kennedy was in the White 
House, Strom Thurmond was still a Democrat, Thurmond was even 
the junior Senator from South Carolina.
    Yes, I covered that tragic moment in our nation's history, 
the assassination of John Fitzgerald Kennedy, such a youthful 
and inspiring figure. In even earlier days, I pumped gas at our 
family station. Price wars fluctuated between 13.9 and 19.9 
cents, those numbers never going above the 20 cents per gallon 
barrier it seems. Fast forward to the 21st Century and our 
energy crisis. Our country has moved from the Carter years of 
35 percent dependency on foreign imports to more like 65 
percent.
    I have testified before Congress on two other occasions, 
stressing the harsh economic impact of high energy costs on 
senior citizens, many of whom are hard pressed to make ends 
meet. And I have called for LIHEAP funding for these seniors. 
But because of our dangerous dependence now on these foreign 
imports this adds another element, a clear and present danger 
to our national security.
    When will it stop? We must find a way to reconcile 
environmental concerns with the need to develop domestic 
resources. I believe that while all forms of energy must be 
developed, first and foremost we must allow domestic 
exploration onshore and offshore. While renewables wind and 
solar have been subsidized for years, they only produce less 
than 3 percent of our energy. They are years and years away 
from replacing or catching up to the 60 percent or more 
provided by oil, gas, and coal.
    Senior citizens can't wait, quite frankly, too many more 
years. 60 Plus seniors have testified at hearings in Atlantic 
City twice, Virginia Beach, Tallahassee, Florida, pleading for 
development of domestic resources to ease their burden. And 
many seniors note that opponents to domestic drilling usually 
state it takes ``ten years'' to bring product to market. Well 
it has been about 15 or 16 years since that argument was made 
in the mid 1990s, so we would now have about 5 or 6 years of 
usable product.
    I will close on a personal note. I was born in Kentucky and 
my dad was in the coal business. Yes, he dug coal for a living. 
I vividly recollect the sight and smell of his carbide lantern 
many mornings as he left before dawn for the coal mine. As a 
little boy, I was fascinated by the black patch my father wore 
over his right eye, a dashing, figure, it brought to mind the 
Terry and the Pirates comic strip, until I learned that he lost 
his eye in a dynamite blast deep in a mine shaft.
    My father's industry way back then, it is nearly 
unrecognizable today. Now we have sounder technologies that 
help diminish environmental risk. 60 Plus is a member of the 
Affordable Power Lights, consisting of the Congress of Racial 
Equality, the National Black Chamber of Commerce, and two 
minority-run religious groups. This coalition works to ensure 
access to affordable energy for the working poor, minorities, 
and the elderly, all of whom are hit especially hard by high 
gas prices. 60 Plus is also a member of the Consumer Energy 
Alliance.
    In summary we need more sources of domestic energy. Senior 
citizens and all Americans will benefit. I also bring greetings 
from our Honorary Chairman, Congressman Roger Zion, now 89 
years young living in Evansville, Indiana, with his wife of 65 
years Marjorie, and also our National Spokesman, legendary 
artist Pat Boone. And I would also point out that somebody has 
commented the bottom line is not ``Drill, Baby, Drill,'' I hear 
that often, but someone else has said, let us stop dreaming, 
start drilling, the time is short, we need to move on with it. 
Thank you for your time.
    [The prepared statement of Mr. Martin follows:]

                Statement of James L. Martin, Chairman, 
            The 60 Plus Association,\1\ Alexandria Virginia
---------------------------------------------------------------------------

    \1\ The 60 Plus Association is a 19-year-old nonpartisan 
organization working for death tax repeal, saving Social Security, 
affordable prescription drugs, lowering energy costs and other issues 
featuring a less government, less taxes approach as well as a strict 
adherence to the Constitution. 60 Plus calls on support from over 7 
million activists. 60 Plus publishes a newsletter, SENIOR VOICE, and a 
Scorecard, bestowing awards on lawmakers of both parties who vote 
``pro-senior.'' 60 Plus has been called, ``an increasingly influential 
senior citizen's group'' and since 1992 ``the conservative alternative 
to the AARP.''
---------------------------------------------------------------------------
    Dear Chairman Hastings and Ranking Minority Leader Markey:
    The 60 Plus Association, which represents over seven million senior 
activists, commends you for your commitment to America and her seniors, 
and for convening this important hearing focusing on the high prices of 
gas and its impact on seniors, minorities, and the tourism industry.
    The 60 Plus Association stands for free enterprise, less government 
and fewer taxes for seniors, and neither takes nor seeks federal grant 
money. As senior activists, we at 60 Plus are pleased to weigh-in on 
whatever our supporters tell us is on their minds. They care deeply 
about Medicare and Social Security reform, repealing the death tax, 
out-of-control government spending, rising taxes, and jobs. . .but I 
must say that lately, I'm hearing more and more about their concerns 
over the adverse impact rising costs of energy has made on their lives. 
And so, 60 Plus is involved.
    60 Plus is also, proudly, a Member of the Affordable Power 
Alliance, consisting of the Congress of Racial Equality (with National 
Spokesperson Niger Innis), the Black Chamber of Commerce (along with 
its President, Harry C. Alford), and two minority-run religious 
groups--the High Impact Leadership Coalition (led by Bishop Harry R. 
Jackson Jr.) and the National Hispanic Christian Leadership Conference 
(with its President, Reverend Samuel Rodriguez). This coalition works 
to ensure access to affordable energy for the working poor, minorities 
and the elderly; all of whom are hit especially hard by high gas 
prices.
    60 Plus is equally proud to be a member of the Consumer Energy 
Alliance led by President David Holt, which was formed to help support 
the thoughtful utilization of all domestic energy resources to improve 
domestic energy security and reduce consumer prices. The also seek to 
improve consumer understanding of our nation's energy security, 
including the need to reduce reliance on imported oil and natural gas 
in order to maintain reasonable energy prices for consumers, and 
continue efforts to diversify our energy resources.
    Groups like these are trying to make a difference because the 
country is in crisis.
    My message is simple: seniors (and for that matter, every segment 
of American society) have for decades painfully witnessed first-hand 
the negligence, and quite frankly, the disregard over this nation's 
mandate for serious energy exploration. Now, our country is in an 
economic crisis and our national security is threatened due to this 
neglect. This nation has the wherewithal to fulfill energy supply 
domestically, but we seem only willing to remain dependent on other, 
unstable and often hostile nations to fulfill our energy needs.
    Time and time again we have heard the rhetoric of Presidents and 
some in Congress regarding alternative energy, but until such options 
become a legitimately viable outlet, we need to focus on tapping 
America's vast natural resources, including drilling both onshore and 
offshore. When then-President Clinton vetoed ANWR in 1995, some 
environmental groups argued that opening ANWR wouldn't do anything to 
lower currently high gas prices (which were then high enough to be a 
drag on the economy and to cause significant public disgruntlement) 
because it would take (quote)10 years (unquote) for the oil to start 
flowing. If President Clinton hadn't vetoed the bill in 1995, there 
would almost certainly be at least an additional one million barrels a 
day starting to flow through the Trans-Alaska pipeline, right now, 
today, for over six years. . .for a total of over 2 BILLION 190 MILLION 
BARRELS of oil that could have gone towards easing our current energy 
crisis. If we want more domestic oil production in the future, we need 
to take action now and not keep falling for the (quote) 10 year 
(unquote) bogus arguments of the past.
    I hope so. Seniors hope so. We need affordable oil production, and 
we need it now!
    With gas prices being at an all-time high, it is hurting those who 
can least afford it. Seniors on fixed incomes are, in many cases, 
unable to keep up with the runaway cost increases that are making a 
devastating impact on their standard of living. According to a USA 
Today/Gallup Poll taken May 12-15, 2011, 7 in 10 Americans say the high 
cost of fuel is causing financial hardship for their families. Gasoline 
to drive our cars, heating oil to keep our homes warm, electricity to 
power the stores we shop in. . .everything is on the increase, cost-
wise. Transportation costs have driven food prices through the roof.
    I speak from experience, having testified before a 2007 hearing of 
the House Resources Committee chaired by Congressman Nick Rahall and 
before a similar House Energy and Commerce Committee's Sub-Committee on 
Energy and the Environment hearing chaired by Representative Eliot 
Engel. My testimonies then focused upon the lack of adequate energy 
exploration and the resulting high energy costs. 60 Plus has also 
testified at Department of Energy hearings in Atlantic City (twice), 
Virginia Beach, and Tallahassee, Florida.
    For 19 years, 60 Plus has worked diligently for a self-sufficient 
energy policy as the best means for affordable energy supplies. Indeed, 
60 Plus' Honorary Chairman Roger Zion (U.S. Congressman from Indiana, 
1967-1975) who served on President George W. Bush's Task Force on 
Energy) authored an opinion piece that appeared in The Washington Times 
(November 9, 2001) urging development of the resources of ANWR and 
criticizing those in Congress blocking such exploration. Then as now, 
in today's terribly troubled world, Congressman Zion's warning that 
reliance for energy sources at such levels from outside our borders is 
not just irresponsible, it is dangerous.
    We believed it was wrong then, and we believe it is still wrong, 
that while this nation has the wherewithal to fulfill energy supply 
needs right here where we live, we only seem willing to let foreign oil 
imports provide the bulk of America's energy, costing jobs and risking 
our nation's economic security.
    Unfortunately, however, if the past is prologue, your hearing, 
which I strongly applaud, will for a short time put a spotlight on the 
legitimate concerns seniors and others have over the rising costs of 
energy and the impact it has on every facet of their lives. Then, 
powerful Big-Green organizations will continue to strong-arm Congress 
to prevent domestic energy production. I believe the environmental 
movement, while important, simply cannot continue to block vital energy 
exploration and production. Domestic energy can be produced 
responsibly, and I believe it is imperative that we bridge this divide 
between those who claim the environmental mantle and those who are 
responsible for providing our energy needs.
    We need more domestic energy, and we need it sooner, not later.
    The crippling burden of these high prices can mean not being able 
to buy medications, get around, or stay warm in winter or cool in 
summer. For seniors this is about more than economic security, it's 
about survival.
    Let me conclude with a few general remarks.
    I believe we need all forms of domestic energy that we can produce 
and this includes oil, coal, natural gas, nuclear and renewables such 
as wind and solar. Speaking of coal, I, for one, am proud to be the son 
of a Kentucky coal miner and vividly recollect the sight and smell of 
my dad's carbide light many mornings as he left before dawn for the 
coal mine. As a little boy, I was fascinated by the black patch my 
father wore over his right eye. He was a dashing figure, and brought to 
my mind Terry and the Pirates comic strip--until I learned that he lost 
his eye in a dynamite blast deep in a mine shaft. My father's industry 
way back then is nearly unrecognizable today. Now we have sounder 
technologies that ensure energy exploration and production with 
diminished environmental risk. But, do we have the will to roll up our 
sleeves and do it?
    Any limits to domestic exploration, whether offshore or drilling in 
the National Wildlife Refuge, etc., at a time when international 
supplies are so uncertain is not good for our nation. We must wean 
ourselves from our dangerous dependence on foreign oil supplies. In my 
previous Congressional testimony I stressed not only the economic 
impact on seniors, but that over-dependence on foreign sources is now a 
clear and present danger to national security. It is a travesty that, 
from the time President Carter said his goal was to see that foreign 
imports, then at about 37%, did not rise ``another percentile''. It is, 
sorry to say (that from the following 5 Presidents, Republicans and 
Democrats alike) that percentile is now in the neighborhood of 65%.
    In re-assessing this country's energy policies, 60 Plus, with well 
over 80% of our supporters being veterans of military service, 
considers this a vital national security issue. In April of this year, 
Cuba announced that they are sinking 16 oil and gas wells just 50 miles 
off Key West, and estimate that 20 billion barrels of crude will be 
harvested. Additionally, 5 Cuban wells are being constructed in the 
Gulf of Mexico. How much of that will be syphoned off our oil deposits 
within American waters? Seniors have long memories. We fondly recall 
cheap gas and boundless energy supplies. Many seniors are old enough to 
remember the gas-ration coupons of the World War II years. Seniors of 
the Boomer Generation remember the 1973 (Nixon Administration) Oil 
Embargo by the Arab Members of OPEC plus Egypt, Syria and Tunisia. They 
remember the Carter Administration's gas lines which occurred during 
the energy crisis of 1979, when oil imports were severely disrupted in 
the wake of the Iranian revolution. Today, the U.S. economy is even 
more vulnerable to hostile nation manipulation of oil imports.
    In summary, we need more domestic energy, and more sources of 
domestic energy. Senior citizens. . .and all Americans. . .will 
benefit. On behalf of the 60 Plus Association, I strongly support 
efforts to ensure reasonable energy prices through access to our 
nation's abundant offshore oil and natural gas resources in all areas 
of the U.S. Outer Continental Shelf, and the opening of ANWR to 
drilling. And we need these measures now.
    Bottom line. Stop dreaming! Start drilling!
                                 ______
                                 
    The Chairman. Thank you for your testimony. Ms. Anderson?

   STATEMENT OF PAMELA ANDERSON, OPERATIONS MANAGER, CAPTAIN 
                       ANDERSON'S MARINA

    Ms. Anderson. Mr. Chairman, Committee members, thank you 
for the opportunity to testify today on the impacts of gas and 
fuel prices on our industry. I am with Captain Anderson's 
Marina. We have 40 small businesses at our marina. They are 
charter boats, dive boats, head boats, dinner cruise and 
sightseeing boats, as well as restaurants and gift shops. 
Tourism covers a lot of territory. We see the same negative 
effects when fuel and gas prices are high in a downed economy 
and when we are working through a time of excessively strict 
fishing regulations.
    Generally speaking, any one of these three issues can make 
a difference. When families cannot vacation, it affects 
everything from gas stations and restaurants along the way to 
the beach as well as the venues at their would-be destinations. 
When a family decides to come to the beach, a budget is usually 
involved. Higher gas prices restrict budgets. Higher gas prices 
can reduce the number of days they stay. Reducing the number of 
days reduces nights in a hotel or condo, meals and restaurants, 
and the day and evening attractions they may visit. It even 
reduces the number of souvenirs they may buy in gift shops.
    For our dinner cruise boat the fuel price adds to the cost 
of operations. Higher gas and fuel prices affect our costs of 
purveyors' goods and services. Depending on how high the prices 
go, many of them will tack on a surcharge for the delivery of 
food and supplies and for service calls by a repairman, even on 
utility bills. And because it is an upscale outing, many will 
choose lesser expensive venues when they are on a tight budget. 
For our large fishing boats or head boats, the minimum number 
of passengers it takes to operate increases when the fuel 
prices are higher. It takes more passengers to pay for the 
trip.
    In off season when many days are run with just a bare 
minimum of 20 or 22, the trip cannot run due to the increased 
passenger requirements. We have to stick with the 20 or 22 
minimums, otherwise we would go with fewer. In season when all 
is well, these trips are normally full or close to it. In a 
downed economy or high gas prices or restrictive fishing 
regulations, folks will limit the number of days they fish, 
limit the length of the trip they take, many will take a 
shorter, lesser expensive trip to save money.
    Tourism was down about 15 percent in our area due to fuel 
prices in 2008. Our charter boats have it a little tougher than 
the head boats because they are a higher end product with a 
captain and crew catering to the desires of the four to six 
passenger. Their trips cost about $500 for a four-hour trip for 
up to six passengers. They use about 50 gallons of fuel per 
trip. When the fuel is $2 a gallon, that expense is $100; but 
when it is $4, it is $200--which is quite a bit of what they 
collected--and that, of course, does not include the captain, 
crew, and supplies and all the overhead. If they increased the 
cost of the trip to compensate, they lose customers--as do the 
head boats if they add a fuel surcharge.
    Last month I was attempting to show the impact of fishing 
regulations on fuel sales and in turn how fishing effort can be 
substantiated by requesting fuel data from marinas that service 
boats that fish in our area. I can show by the number of 
gallons of fuel sold at the marina the difference in revenue 
collected in a time of high fuel prices or in a downed economy 
or in a time of restrictive fishing regulations. If one of 
these issues is in play, marina fuel sales are down.
    Right now the economy is recovering but the other two 
issues are in play. I was attempting to provide another way of 
showing fishing effort since NMFS's researchers are having such 
a hard time getting the data to look what reality looks like 
that we see on the water. My premise was, if fishing boats are 
not buying fuel they are not fishing, thus fishing effort is 
reduced. It was dismissed as irrelevant, but I am happy to say 
the FWC in Florida is interested in this new data.
    We believe answers to the fuel prices being out of sight 
and the dependency on fuel from other countries is to allow 
drilling to continue in the Gulf to allow refineries to be 
built and to allow both in other areas of the country where the 
people in those states agree that it is a good thing for their 
state. Louisiana and Texas want it, North Dakota and Alaska 
want it. It means jobs, good paying jobs, it means less 
dependency on foreign oil. That to me is a no-brainer. Why are 
we giving all this money to people who do not even like us when 
we can get the job done right here and for less and put 
Americans to work in the process?
    You will not find too many if any fishermen that did not 
like the oil rigs due to the good fishing habitat they provide. 
It takes less than a year for an artificial reef to become home 
to some of our reef fishes, and it grows from there. We 
advocate the rigs to reefs program instead of destroying the 
old rigs. In northwest Florida our chambers of commerce and 
many others of us have said that our area is not good for 
drilling. We have military bases that need the areas offshore 
to work, and we have pristine white beaches and beautiful, 
clear emerald water to swim in. We need to protect those, but 
there are other areas even in Florida that have said that they 
prefer having drilling there, and they should have it if that 
is what they want.
    We will always have a potential threat of something like we 
saw last summer with BP as long as there is drilling or oil 
tankers traveling the Gulf. But we believe the cause of that 
accident was due to human error, people not keeping watch 
making sure the safety protocols were in place. That definitely 
needs your attention, but to put all those people out of work 
because a few people were greedy in not keeping their equipment 
safe and those responsible for inspections not keeping watch, 
no, we should punish those who have done wrong and let us get 
the folks back to work.
    [The prepared statement of Ms. Anderson follows:]

           Statement of Pamela Anderson, Operations Manager, 
          Capt. Anderson's Marina, Panama City Beach, Florida

    Chairman Hastings, Committee Members, thank you for the opportunity 
to testify today on the impacts of gas and fuel prices on our industry.
    Tourism covers a lot of territory. We see the same negative effects 
when fuel and gas prices are high, in a downed economy and when we are 
working through a time of excessively strict fishing regulations. 
Generally speaking any one of the three issues can make a difference.
    When families cannot vacation, it affects everything from gas 
stations and restaurants along the way to the beach, as well as the 
venues at their would-be destination.
    When a family decides to come to the beach, a budget is usually 
involved. Higher gas prices restrict budgets.
    Higher gas prices can reduce the number of days they stay. Reducing 
the number of days reduces nights in a hotel or condo, meals in 
restaurants and the day and evening attractions they may visit.
    It even reduces the number of souvenirs they buy in gift shops.
    For our dinner cruise boat, the fuel price adds to the cost of 
operations. Higher gas and fuel prices affect our costs of purveyors' 
goods and services. Depending on how high the prices go, many of them 
will tack on a surcharge for the delivery of food and supplies and for 
service calls by repairmen, even on utility bills.
    For our large fishing boats, or head boats, the minimum number of 
passengers it takes to operate increases when the fuel prices are 
higher. It takes more passengers to pay for the trip. In off-season, 
when many days are run with a bare minimum of 20 or 22, the trip cannot 
run due to the increased passenger requirements. In-season, when all is 
well, these trips are normally full or close to it. In a downed economy 
or higher gas prices or restrictive fishing regulations, folks will 
limit the number of days they fish, limit the length of the trip they 
take. Many will take a shorter, lesser expensive trip to save money.
    Our charter boats have it a little tougher than the head boats 
because they are a higher end product, with the captain and crew 
catering the trip to the desires of the 4-6 passengers. Their trips 
cost about $500.00 for a 4 hour trip with up to 6 passengers. They use 
about 50 gallons of fuel per trip. When fuel is $2/gal., that expense 
is $100.00, but when it is $4/gal., it runs $200.00, which is quite a 
bit of what they collected and that, of course, does not include the 
captain, crew and supplies and all the overhead. If they increase the 
cost of the trip to compensate, they lose customers, as do the 
headboats if they add a fuel surcharge.
    Last month I was attempting to show the impact of fishing 
regulations on fuel sales and, in turn, how fishing effort can be 
substantiated by requesting fuel data from marinas that service boats 
that fish. I can show, by the number of gallons of fuel sold at the 
marina, the difference in revenue collected in a time of high fuel 
prices, or in a downed economy, or in a time of restrictive fishing 
regulations. If one of these issues is in play, marina fuel sales are 
down. Right now, the economy is recovering, but the other two issues 
are in play. I was attempting to provide another way of showing fishing 
effort since NMFS researchers are having such a hard time getting the 
data to look like the reality we see on the water. My premise was, if 
fishing boats are not buying fuel, they are not fishing, thus fishing 
effort is reduced. It was dismissed as irrelevant.
    We believe answers to the fuel prices being out of sight, and the 
dependency on fuel from other countries is to allow drilling to 
continue in the Gulf, to allow refineries to be built, and to allow 
both in other areas of the country where the people in those states 
agree that it is a good thing for their state. LA and TX want it. ND 
and AK want it. It means jobs, good paying jobs. It means less 
dependency on foreign oil. That to me is a no-brainer. Why are we 
giving all this money to people who do not even like us, when we can 
get the job done here? And for less?! And put Americans to work?
    You will not find too many, if any, fishermen that do not like the 
oil rigs due to the good fishing habitat they provide. It takes less 
than a year for an artificial reef to become `home' to some of our reef 
fishes, and it grows from there.
    In NW FL, our Chambers of Commerce, and many others of us have said 
that our area is not good for drilling. We have military bases that 
need areas offshore to work and we have pristine white beaches and 
beautiful clear emerald water to swim in. We need to protect that 
Natural Resource the Lord has provided.
    We will always have the potential threat of something like we saw 
last summer with BP as long as there is drilling, or oil tankers 
traveling the Gulf. But we believe the cause of that accident was due 
to human error, people not keeping watch, making sure the safety 
protocols were in place. That definitely needs your attention, but to 
put all those people out of work because a few people were greedy and 
not keeping their equipment safe, and those responsible for inspections 
not keeping watch? No. Punish those who have done wrong, and let's get 
folks back to work.
    We don't stop building condos if the building inspector overlooked 
fire hazards or improper building materials and a condo has a fire or, 
worse collapses because the contractor cut corners. We require they 
resolve the problem, make things right with those affected, and let the 
responsible builders continue to build.
    I think drilling can be looked at in the same manner.
    Thank you.
                                 ______
                                 
    The Chairman. OK, thank you for your testimony and for 
being here. Mr. Sloan?

              STATEMENT OF ANDREW SLOAN, FELLOW, 
                TRUMAN NATIONAL SECURITY PROJECT

    Mr. Sloan. Mr. Chairman, Ranking Member Markey, members of 
the Committee, I am honored to be with you here today. It is 
true that Americans of all ages and employments are suffering 
due to gas prices. However, it is not only Americans that 
suffer, but America herself who pays a correspondingly high 
price. Whereas Americans pay for it out of their wallets, 
America pays for it out of the coffers of her national dignity. 
The shame of our continued dependence on oil is exposed for all 
to see.
    Equally embarrassing is a return to ``Drill, Baby, Drill.'' 
``Drill, Baby, Drill'' is not an answer; it is an excuse. It is 
an excuse to avoid telling the American people the truth: the 
truth that the majority of the tens of millions of offshore 
acreage currently under lease are inactive; the truth that 
America produced more oil last year than any year since 2003, 
and that increase in supply has done nothing to limit gas 
prices; the truth that instability in small oil producing 
countries that America does not import from directly still has 
the ability to wreak havoc at your local gas pump; the truth 
that even if we exploited everything, cast off environmental 
protection and shred of national honor to produce additional 
oil, we will still always rely on other countries for oil and 
that will always constitute a threat to our national security, 
always.
    Oil robs Americans of their independence. It stifles 
America's ability to control its own destiny and its own 
security. Our over-reliance on oil puts our way of life, our 
ability to drive to work, to start companies, to even buy 
groceries into the hands of others. Again many would argue that 
our problem is not oil but foreign oil and that we have enough 
resources in America if we only had the courage to explore and 
exploit them.
    There is nothing courageous about that, there is nothing 
patriotic about it either. It is the talk of people who would 
see us double down on our relationship with oil that has turned 
from symbiotic to parasitic. Those who advocate more of the 
same, more oil, more dependence, more debasement of our values 
endanger this country by embracing a strategy that has been 
failing us for several decades now. This coming weekend is 
Memorial Day. It is a weekend where people travel, go to the 
movies, or have a family barbecue.
    Memorial Day is more than just hotdogs and hamburgers. 
Memorial Day is a day to remember those men and women who had 
the courage to do right by America even when those actions 
would cost them everything. It is a day to remember that 
nothing worth anything comes easy or without sacrifice. When I 
think back to the sacrifices made by the brave men and women 
that I served with in combat, I remember how great a 
responsibility it is to ask people to sacrifice for something. 
When I sent soldiers into harm's way, I held on to the belief 
that their sacrifices would not be in vain.
    The sacrifice that people make this Memorial Day must be 
for a purpose as well. Soldiers do not sacrifice for the status 
quo, they sacrifice in the hopes that they will bring about a 
change. ``Drill, Baby, Drill'' is not a change, it is more of 
the same. If it becomes our strategy for the future, then not 
only will the hardships Americans are suffering at the pump 
this weekend be for naught, it is almost guaranteed that they 
will be asked to sacrifice again and again and again in the 
years to come.
    There are other solutions, however. Right now the military 
is investing in private sector companies that are working to 
develop advanced generation drop-in biofuels that can be grown, 
not mined, right here in America. Advanced research into 
battery technology has the potential to usher in a new wave of 
electric vehicles. And finally, simple regulatory guidance that 
increases fuel efficiency standards can eliminate the need for 
billions of gallons of oil.
    These are not slogan solutions that roll easily off the 
tongue. These are real solutions that embrace the innovative 
and entrepreneurial spirit of the American people. These are 
solutions that do justice to the sacrifices people are making 
right now and will continue to make this weekend. This is not a 
Memorial Day problem. This is a problem of the decade or the 
next 50 years of the future. It is a threat to our economic and 
national security.
    It cannot be fixed in time for this Memorial Day weekend, 
but it can be fixed in time for Memorial Day weekends to come. 
It simply requires leaders who are brave enough to put forth 
solutions instead of hide behind excuses. It requires leaders 
who would wrest control of America's future away from the 
suffocating grip of oil markets and place it instead into the 
hands of her people and their innovative spirit. Thank you very 
much.
    [The prepared statement of Mr. Sloan follows:]

          Statement of Andrew Sloan, Retired US Army Captain, 
                Fellow, Truman National Security Project

    Chairman Hastings, Ranking Member Markey, Members of the Committee, 
Ladies and Gentlemen, I am honored to be here to discuss how rising gas 
prices impact America's way of life.
    It is true that Americans, of all ages and employments, are 
suffering as a result of gas prices. However, it is not only Americans 
that suffer, but America herself that pays a correspondingly high price 
as well. Whereas Americans pay for those high prices out of their 
wallets, America pays for it out of the coffers of her national 
dignity. The shame of our continued addition to oil is exposed for all 
to see.
    Just as embarrassing is the return to the chants of ``Drill, Baby, 
Drill.'' ``Drill, Baby, Drill'' is not an answer, it's an excuse. It's 
an excuse to avoid telling the American people the truth. The truth 
that 70% of the tens of millions of offshore acreage under lease are 
currently inactive. The truth that America produced more oil last year 
than any year since 2003 and yet that increase in supply has done 
nothing to keep down gas prices. The truth that instability in small, 
oil-producing countries that the U.S. does not import from can still 
wreak havoc on prices at your local pump. The truth that even if we 
exploited everything, cast off every environmental protection and shred 
of national honor in the pursuit of additional oil, we will always rely 
on oil from other countries and this will always represent a threat to 
our national security. Always.
    Oil robs Americans of their independence. It stifles America's 
ability to control its own destiny and its own security. Our over-
reliance on oil puts our way of life, our ability to drive to work, to 
start companies, and to even buy groceries into the hands of others.
    It also robs us of our values and our ability to stand up in the 
world for what know is right. Americans could not properly cheer the 
potential overthrow of Muammar al-Gaddaffi because of the resultant 
spike in the price of gas. The ability of the American people to stand 
up for freedom, for liberty is compromised, on a daily basis, by our 
dependence on oil.
    Again, many would argue that our problem is not oil, but foreign 
oil and that we have enough resources in America if only we had the 
courage to explore and exploit them. There's nothing courageous about 
that kind of talk. There's nothing patriotic about it, either. It is 
the talk of people who would see us double-down on a relationship with 
oil that has turned from symbiotic to parasitic. Those who advocate 
more of the same, more oil, more dependence, more debasement of our 
values endanger this country by embracing a strategy that has been 
failing Americans for several decades.
    This coming weekend is Memorial Day- a weekend where people travel, 
go to the movies, or enjoy a family barbeque. But Memorial Day is more 
than just hot dogs and hamburgers. Memorial Day is a day to remember 
those men and women who had the courage to do what was right by America 
even when those actions would cost them everything. It is a day to 
remember that nothing worth anything comes easy or without sacrifice.
    When I think back to the sacrifices made by the brave men and women 
that I served with during my time in combat, I'm reminded of how great 
a responsibility it is to ask people to sacrifice for something. When I 
sent soldiers into danger, I held on to the idea that their sacrifices 
would not be in vain.
    The sacrifices that people are making this Memorial Day must be for 
a purpose as well. Soldiers do not sacrifice for the status quo, they 
sacrifice in the hopes that their efforts can bring about a change. For 
high gas prices, ``Drill, Baby, Drill'' is not a change, it's more of 
the same. If it becomes our strategy for the future, then not only will 
the hardships Americans suffer at the pump this weekend be for nothing, 
it's almost guaranteed that they'll be forced to sacrifice again. And 
again. And again.
    There are other solutions, however. Right now, the military is 
investing in private sector companies to develop advanced generation, 
drop-in biofuels that can be grown, not mined, right here in America. 
Advanced research in battery technology has the potential to usher in a 
new wave of electric vehicles. Finally, simple, regulatory guidance 
that increases fuel efficiency standards can eliminate the need for 
billions of gallons of oil.
    These are not slogan solutions that roll easily off the tongue. 
These are real solutions that embrace the innovative, entrepreneurial 
spirit of the American people. These are solutions that do justice to 
the sacrifices people are making and will continue to make this coming 
weekend.
    This is not a Memorial Day problem. This is the problem of the 
decade, of the next fifty years, of the future. It is a threat to both 
our economic and national security. It cannot be fixed in time for this 
Memorial Day, but it can be fixed in time for Memorial Days to come. It 
simply requires leaders who are brave enough to put forth solutions 
instead of hiding behind excuses. It requires leaders who would wrest 
control of America's future away from the suffocating grip of oil 
markets and place it instead into the hands of her people and their 
innovative spirit. Thank you.
                                 ______
                                 
    The Chairman. All right, thank you, and for each of you for 
being here today and for your remarks. We will now begin our 
questioning. Members are limited to five minutes. And I will 
start with the first round of questions. Mr. Martin, higher 
energy costs are forcing our nation's seniors to make tough 
decisions. Older Americans are disproportionately affected by 
higher costs because many live on fixed incomes. As a share of 
income, people 65 and older spent more on energy related 
expenditures than their younger counterparts.
    Some senior citizens have bee forced to limit their food 
purchases and many have gone even with less medical services or 
have cut back on prescription drugs because of the higher 
energy costs. As for the cost of energy itself, renewable 
sources such as solar and wind used for electric generation are 
more expensive because, more expensive compared to conventional 
sources of electric generation, until perhaps we have a 
technological breakthrough in the future. How would you 
respond, Mr. Martin, to those who believe it is worth the 
higher cost to consumers to shift to renewable energies that 
are more expensive? How would this affect your members?
    Mr. Martin. Well first of all, Mr. Chairman, senior 
citizens as you just pointed out in the case of Nettie Cash I 
believe it was, going with less of her medicines and even 
without her inhaler, thank goodness I still am able to afford 
my inhaler, which I use on a daily basis. But the fact of the 
matter is these renewables they are many, many, many years away 
and extremely expensive, and like I said in my testimony we 
seniors don't have that many years to wait for those renewables 
to come aboard.
    I believe the New York Times even said that they are 50 
percent more expensive and that, you know, I remember too years 
ago the renewables and the environmentalists said we may be 
near the competitive tipping point. Well that was some 25 or 30 
years ago, and I don't believe we, you know, 30 years later we 
are certainly not near according to the New York Times we are 
certainly not near a competitive tipping point. We need those, 
yes, but right now we need to get on quite frankly with 
developing our resources onshore and offshore, and that means 
drilling for oil and that means, being an old Kentucky boy, 
coal is, was king then, it is still king, king coal in 
Kentucky.
    The Chairman. OK, thank you, Mr. Martin. Ms. Anderson, you 
have eloquently described the negative impact that higher fuel 
costs have on the tourism business one such as yours. What do 
you foresee is the future of the tourism industry if fuel costs 
remain at today's level?
    Ms. Anderson. I see that it is going to continue to 
negatively impact our economy and our area. We have seen what 
it did in 2008, we know what it is doing right now, and if it 
continues in this direction it is just going to continue to 
negatively impact our industry there.
    The Chairman. All right, thank you. And, Ms. Borelli, 
gasoline makes up a relatively large portion of the average 
family's budget, well over 15 percent on average. Private 
vehicles are the dominant mode of travel even among households 
with an average annual income below $20,000. The amount that 
the price of gasoline takes out of the family's budget can even 
be higher as a proportion when you have a smaller budget to 
start with. And if you live in the West or Midwest, public 
transit is not a viable option. Affordable transportation for 
struggling families in the working class can be the difference 
between self sufficiency or a substandard of living. Who are 
the winners and losers in this Administration's current energy 
policy?
    Ms. Borelli. Well I see the winners as the individuals who 
are from the land of the elites. Those are the corporate CEOs 
for example who are really basing their product sales on the 
boot of government to mandate their products. GE CEO Jeff 
Immelt, he sells windmills and turbines, he is hoping that 
there is some sort of legislation that will allow him to sell 
their renewable energy products.
    The fact of the matter is if these products could survive 
on their own they wouldn't need the government to back up and 
prop them up for sale purposes. So in that instance he is 
someone for example who is pressing an elite agenda who can 
afford higher energy costs where you have people who are 
hardworking Americans who cannot afford these higher energy 
prices.
    The Chairman. OK, thank you very much. I now recognize the 
Ranking Member.
    Mr. Markey. Thank you. Ms. Borelli, do you feel the same 
way about tax breaks for the oil industry?
    Ms. Borelli. I see the tax breaks for all manufacturing, 
and so when you have----
    Mr. Markey. Well would you support taking away, in other 
words, the $4 billion a year that we give to the elite who are 
the CEOs of the oil companies as well? You spoke negatively 
about Jeff Immelt. Do you feel the same way about the oil 
industry executives asking us to give them $4 billion a year in 
tax breaks?
    Ms. Borelli. When I see the concern about tax breaks, it is 
for manufacturing and it is for incentives for a company to 
remain----
    Mr. Markey. The same thing is true for wind, they want the 
same kind of tax breaks for wind. Would you take away both or 
would you keep both on the books?
    Ms. Borelli. If I can finish the sentence, I see tax breaks 
as an incentive for businesses to remain in our country to 
provide jobs and to provide----
    Mr. Markey. So would you object to that for General 
Electric with wind?
    Ms. Borelli. I object to subsidies across the board, why 
don't we do that, because----
    Mr. Markey. So what I am saying is would you take away the 
tax breaks for the oil industry? That is my question to you.
    Ms. Borelli. Why don't we remove all of the tax breaks and 
see what products would stand on their----
    Mr. Markey. So would you take away wind and oil tax breaks?
    Ms. Borelli. You are not allowing me to finish the 
sentence, sir.
    Mr. Markey. It is just yes or no, would you take away the 
tax breaks for the wind industry and for the oil industry?
    Ms. Borelli. I say remove all of the tax breaks and see how 
these companies will stay in business and provide jobs.
    Mr. Markey. Good, then I am going to take, all right, I 
will take it as a yes.
    Ms. Borelli. When you have incentives, a subsidy for 
renewable wind and solar, it is $23 that the taxpayers are 
paying.
    Mr. Markey. Ms. Borelli, there are eight different 
subsidies for the oil industry.
    Ms. Borelli. Nuclear is $1.59.
    Mr. Markey. Now let me just tell you that yesterday, here 
is what the Republicans did yesterday. While they continue to 
support, Ms. Borelli, the $4 billion a year for the oil 
industry even as they are reaping the largest profits that any 
industry has ever been able to enjoy, that they yesterday in 
the Appropriations Committee cut out $1.5 billion for the new 
more fuel efficient vehicles, many of them made in Kentucky and 
other states across the country, these new much more fuel 
efficient vehicles, they cut out $1.5 billion for that program.
    In the budget which they passed already, they cut 70 
percent in the budget for wind and for solar, but they continue 
to maintain the tax breaks for the oil industry. So I agree 
with you, that it should all be one way or the other, and I 
think you put your finger right on it, OK, and I thank you for 
doing so. Because they can't have it both ways. God is not so 
good that he lets you have it both ways. You can't say all of 
the above when you really mean oil above all.
    So the tax breaks for oil continue even as they reap 
windfall profits, and they want to turn the CFTC and the New 
York Mercantile Exchange into a crude oil casino where the 
price continues to rise while at the same time cutting wind, 
cutting solar, cutting the fuel efficient vehicles. So let us 
go to the national security aspect of this, Mr. Sloan, can you 
talk about what the implications are of creating such an 
imbalanced policy for our country?
    Mr. Sloan. Well absolutely. I would first like to point out 
that I am a little bit shocked that we are talking so much 
about wind and solar when we are really here to discuss gas 
prices. And unless you have a major shift in how we electrify 
vehicles and move to electrification for all vehicles, wind and 
solar and renewable energy are generation, they power your 
house, so does coal, it powers your house. It does not power 
your car, that is oil.
    In terms of efficiency and cutting out efficiency 
standards, I work for a company called Opower. It is a private 
sector energy efficiency and smart grid software company right 
here in Arlington, Virginia, with 200 employees. It works to 
help utilities help their customers save money on their energy 
bill. Efficiency may not be as well known or as sexy as 
renewable energy or as pliant as coal, but it is often the most 
lowest cost option to save consumers money. And so by taking 
away this lowest cost option you are removing one of the ways 
that can make us more secure at a lower cost price and can have 
a more immediate benefit to seniors, to working families, to 
everyone across the board.
    Mr. Markey. All right, so yesterday they cut by $1.5 
billion the green car factory funds. So this is the innovation 
oriented reorientation of Ford and General Motors and Chrysler 
that is now beginning to show the real profits that we are 
going to need in the future, and instead of cutting the 
subsidies for the oil industry they are cutting the programs 
that make it possible for us to deal with where we put 70 
percent of the oil that is into gasoline tanks.
    So if we don't increase the efficiency of those vehicles by 
moving to plug-in hybrids, by moving to all electric vehicles, 
then what they are saying is to OPEC, have a good night's rest, 
don't worry about the United States, they are going to continue 
to import this oil from overseas, don't worry about it. So they 
are subsidizing the oil industry even as they are undermining 
how we increase the efficiency and where we put the oil in our 
country, and those factories are in Kentucky, those auto 
factories are in Alabama, they are in Tennessee, they are all 
across this country and they are saying to them, tough luck, 
import that oil and we are going to reward the executives of 
those companies.
    The Chairman. OK. Mr. Wittman of Virginia.
    Mr. Wittman. Thank you, Mr. Chairman. I want to thank the 
witnesses for joining us today. And certainly what we have 
before us is a significant challenge, to make sure that we are 
meeting this nation's future energy needs and again with an all 
of the above policy. I wanted to ask Mr. Martin for his 
perspective. I think we have heard a lot in the past weeks 
about the effect of costs on seniors, and I wanted to get a 
little more expansive view from you about how you believe the 
current energy policy as it relates to energy prices including 
gasoline for vehicles affects our seniors and how that impacts 
their daily living issues that they have to deal with in 
maintaining a budget and the choices that they have to make.
    Mr. Martin. Sure, well thank you very much. Well I would 
refer back to what the Chairman said earlier in I think it was 
an AP poll that maybe like 40 percent of people are impacted 
their travel plans and the cost of gasoline. Well it is more 
like 75 or 80 percent for seniors, and it was 68 percent a few 
months ago. Senior citizens are up against it. They are hurting 
because nobody, that segment of society living on fixed incomes 
as they are, and by the way I hark back to the past, if it is 
prologue let us point out that while, and I mentioned in my 
testimony, while people say it will take ``ten years'' to get 
product to market, well that was 1995 and here we are 16 years 
later, so I believe if my math is right we would have 5 or 6 
years of usable product on the market.
    And going further, I noticed that the Marcellus Shale up in 
Pennsylvania, now in its seventh year of production, the 
economy is booming. And that is great, but the fact is I refer 
again to the New York Times talking about wind and solar. The 
New York Times says it is still 50 percent more expensive. And 
again I would reiterate when the environmentalists and others 
said almost 30 years ago, it seems like yesterday, we are near 
that competitive tipping point when we will be competitive, 
well we are nowhere near competitive if you read and believe 
what the New York Times says about it.
    Yes there is a place for all. In my state of Kentucky I 
believe if you ask them what you want to see produced right 
now, yes those cars, those electric cars that go 45 or 50 miles 
before a recharge, but also they are interested in the coal 
business. And I say it again proudly, my father was in that 
coal business, he dug it all of his life for a living. Thank 
you.
    Mr. Wittman. Thank you, Mr. Martin. Ms. Borelli, let me ask 
you this. If you look at household budgets and you look at low 
income families and you see that for those low income families 
their energy costs consume somewhere around 25 percent of their 
budget, can you comment on how energy prices affect low income 
families? And specifically looking at the makeup of that 
particular element of their budget and how that in the future 
may additionally affect their household budgets and also their 
earning capacity. I know there has been a lot of concerns about 
earning capacities related to the energy cost for people to 
seek employment to be able to move around in today's mobile 
society.
    Ms. Borelli. All right, well energy costs will affect poor 
and low income households because they have to take that money 
from someplace else within their budget, so that would be 
taking money from education, from clothing, from food, from 
medicine. But there is a concern also about individuals who are 
trying to find employment. If they happen to not be employed 
and gas prices are high, they can't seek employment that is 
more than 20 miles or so from their home because of the concern 
about high gas prices.
    In some cases in Chicago, for example, a company won't even 
hire an individual if they live more than 25 miles from where 
the place of employment was being offered. So you have people 
who are relying on churches for example for gas cards, they are 
relying on family and friends just to fill up their tanks, or 
they are not doing anything with their family like they are 
accustomed to doing, which means they are suffering from a 
reduced standard of living because of high gas prices, which is 
not what we should be experiencing right now because we have a 
wealth of supply right here in our country.
    Mr. Wittman. Do you believe that under that scenario are 
minorities disproportionately affected by high energy prices?
    Ms. Borelli. It is a regressive tax. Yes, minorities are 
disproportionately affected because blacks and Hispanics are 
polled as making less money than say white individuals and 
Asian individuals. So it is a regressive tax and it is harming 
Americans, minority Americans.
    Mr. Wittman. OK.
    The Chairman. OK, thank you. Mr. DeFazio of Oregon.
    Mr. DeFazio. Thank you, Mr. Chairman. I hope to get to some 
consensus here. We all agree that Americans are suffering from 
high prices at the pump, it is threatening our economy, and it 
disproportionately affects people of lower incomes, that is all 
agreed. The question is what do we do about it? We are arguing 
about something fairly distantly in the future it seems, and 
there is something we could do today. So I will put forward two 
ideas, and since we have at least three advocates there very 
strongly for free markets.
    The OPEC cartel manipulates the market. They set targets 
for production, supply, and prices. We had testimony here about 
a month ago that even if the U.S. could miraculously tomorrow 
increase its production by 20 percent, million barrels a day, 
you were talking about a million barrels a day, it would have 
no impact because OPEC would drop production by a million 
barrels a day just like they picked it up when Lybia came off 
the market. They have that flexibility, they would do that.
    I urged the Bush Administration, Clinton first, Bush, and 
now Obama, to file a complaint in OPEC because they are 
violating the WTO. Four countries are members who are in OPEC, 
the WTO says you cannot manipulate supply unless it is for 
conservation purposes, and clearly these Saudi Arabia and other 
countries are not conserving the oil, they are manipulating the 
market. Would any or all of you support such a complaint? Do 
you think that is a good idea? I see one head nodding, how 
about the other?
    Mr. Martin. Yes.
    Mr. DeFazio. Yes? OK, great.
    Mr. Martin. I will sign a letter to that effect.
    Mr. DeFazio. All right, good, all right. How about you, Ms. 
Borelli?
    Ms. Borelli. Well we shouldn't be relying on foreign 
sources----
    Mr. DeFazio. No, but I mean just let us, you know, I asked 
the U.S. Chamber of Commerce about this and they wouldn't go 
there. I mean can't we say that the United States of America 
should file a complaint on behalf of our consumers and our 
businesses against market manipulation by Saudi Arabia, 
Venezuela, and other friends of ours?
    Ms. Borelli. Absolutely.
    Mr. DeFazio. Good, thank you. All right, now we have 
agreement on one thing. That could have a pretty good and 
shorter term impact. Now second, and if we did produce more 
domestic oil then they couldn't, you know, manipulate the price 
and offset our production. OK, here is the other one, much more 
immediate than that. Yesterday the Commodities Future Trading 
Commission filed a complaint from way back in 2008 against 
market manipulation against a couple of energy companies.
    And in the modern day world Goldman Sachs says that there 
is a premium of between $21 and $26 per barrel because of 
energy speculators. That is 60 to 80 cents a gallon. Would you, 
any of you, Ms. Borelli, I would start with you, would you 
support restrictions on this sort of speculative trading, the 
sort of restrictions we had in place before the Enron Amendment 
was adopted?
    Ms. Borelli. To place, I am sorry, say the question again?
    Mr. DeFazio. We have something called the Enron Amendment 
that has been partially modified but not implemented in the 
financial reform of last year regarding speculators in the 
market versus hedgers. The world is divided between, and it 
used to be 30 percent speculators 70 percent hedgers. Due to 
the Enron Amendment and other changes of law it is 70 percent 
speculators, and Goldman Sachs says we are paying about 60 to 
80 cents more per gallon because of pure speculative activity. 
Would those be elites, those speculators? Would those be people 
who are robbing, you know, the poor, who are distorting our 
economy? They are speculating.
    Ms. Borelli. Well I see anyone who is speculating, 
basically President Obama has sounded the alarm that energy 
costs will skyrocket, so clearly what side of the market would 
a person in the market be on if they know that energy costs are 
going to go up.
    Mr. DeFazio. Well in this case, in the Parnon case, what 
they did is they cornered the market, they made it look tight, 
then they bet short and they dumped their oil at the end of the 
month. So there are a lot of ways to manipulate the market. 
What I am saying is if we could save 60 to 80 cents per gallon 
by regulating the market and restricting it to people who have 
a legitimate end use for the product like we used to do, would 
you support that or do you think we should just continue to pay 
60 to 80 cents more so people can speculate?
    Ms. Borelli. I think speculating is part of what happens 
with the market in general.
    Mr. DeFazio. Sure, OK, you are right. Anybody else want to 
get 60 to 80 cents tomorrow, a week from today, helping the 
American people, helping the boaters and others, by regulating 
the billionaire speculators on Wall Street?
    Mr. Martin. Is that, yes, 60 to, is that how much you guys 
tax each gallon of gas?
    Mr. DeFazio. The United States government taxes at 18.4 
cents per gallon, so the speculators are adding four times 
that.
    Mr. Martin. OK.
    Mr. DeFazio. And I would say that the money we invest in 
the nation's infrastructure is perhaps better used than the 
money that goes to some Wall Street hedge fund speculator who 
only pays 15 percent raised tax----
    Mr. Martin. Absolutely, I am against those speculators just 
like I am against OPEC trying to fix the price.
    Mr. DeFazio. Good, all right, I like it.
    Mr. Martin. But also we should also, I will sign that 
letter but I would also have a provision in it that says we 
need to get on with production of our natural resources.
    Mr. DeFazio. OK, thank you. Thank you, Mr. Chairman.
    The Chairman. OK, thank you. Mr. Fleming of Louisiana.
    Mr. Fleming. Thank you, Mr. Chairman. You know, we are here 
today talking about the problem we have today of increasing 
gasoline prices. The reality is that with our President, with 
many Democrats in Congress today, and with certain 
environmentalists, they see that as a virtue. Mr. Issa, in 
fact, in his oversight is bringing these facts out, documenting 
over and over. And I will just give you some examples. Energy 
Secretary Chu in 2008 said, somehow we have to figure out how 
to boost the price of gasoline to the levels of Europe, which I 
understand today is in the $8 to $10 a gallon range.
    Secretary Salazar when he was a Senator said that he was 
comfortable going up to $10 a gallon. The President himself 
said that under his cap and trade that electricity prices would 
necessarily skyrocket. So the point I am making here is that 
there is in terms of the constraint of oil production and 
energy production from fossil fuels, I think in the eyes of 
many here in Washington on the other side of the aisle there is 
actually a virtue there.
    Now you have heard the statement that energy production is 
highest since 2003. Overall, our oil barrels per day has 
dropped from 9 million barrels in 1972 per day down today about 
6 million barrels. Offshore drilling in 2010 before the Deep 
Horizon was 1.7 million barrels a day. It has dropped down now 
to 1.59 and continuing down under this moratorium of permits 
that we have today. Now let me talk a minute about the so 
called alternative forms of energy, what are these.
    Wind, we are not making any progress in technology. I don't 
see it happening in 50 years. T. Boone Pickens just threw in 
the towel and said, my $1.5 billion is off the table, natural 
gas is the way to go. Solar, we don't have a way and we can't 
figure out a way to store it and capture it in a cost effective 
way. It is not competitive. Hydrogen, Wall Street Journal just 
on Monday came out with an article saying first of all it takes 
a lot of natural gas to make it, and number two, it just is not 
cutting it. Even the thousands of outlets around the country, 
no one is taking them up because again it is not cost 
effective.
    Battery power, it doubles the price of automobiles, not 
cost effective. Ethanol, we know what a disaster that is, 
showing up in all kind of commodity prices. On the other hand 
the USGS says we have more oil and certainly more coal and much 
more natural gas that we have found just in the last five years 
than we ever thought we would have. And the technology for 
finding them, for producing them, and for cleaning them is the 
best ever and it continues to improve. So I would submit to you 
today that we have everything we need to drive oil and gas 
prices down.
    And with respect to the questions on speculation, 
speculation is just that, it is a prediction of the future. And 
if our President, and, Ms. Borelli, you are absolutely correct. 
If the President is sending signals that the prices are going 
up or he wants to constrict production, of course they are 
going to go up. If you want speculators to bring the prices 
down, send them a signal that we are going to put more supply 
on the market and they will come down naturally.
    With respect to subsidies and taxes, oil and gas companies 
do not get subsidies. Let me repeat that. Oil and gas companies 
do not get subsidies. That is a lie. They get the normal tax 
deductions that any other company would get. On the other hand 
the so called alternative forms of energy get heavy tax 
subsidies to the tune of as much as 80 percent. And reason, 
because it is just not cost effective in the marketplace. Ms. 
Borelli, I am going to let you respond to this because you were 
so rudely interrupted. So you have the rest of my time, thank 
you.
    Ms. Borelli. Thank you, and this in terms of the tax 
credits you were referencing or, because that was a long list 
of information you gave there?
    Mr. Fleming. Well, let me say comment on anything you want 
to, it doesn't matter.
    Ms. Borelli. Well if I could finish my previous point and 
then I will go on for something else. Tax incentives are the 
means to keep manufacturing facilities here in our country, it 
will provide jobs and it will provide revenue. Now if you are 
going to demonize the fossil fuel industry for example, $86 
million goes to the government every day and that is in the 
form of rents, royalties, and fees. And the industry also 
supports 9.2 million jobs. So if you are going to demonize the 
industry, pick winners and losers, where is that money, $86 
million a day, going to come from and what are we going to do 
about a loss of additional jobs where unemployment is already 9 
percent?
    Mr. Fleming. And just quick followup to that, these are 
excellent paying jobs, many of the jobs that are being lost out 
of Louisiana. On the other hand I have heard for the two-and-a-
half years I have been on the Hill about all these green jobs. 
I have yet to meet one person who has a green job. I do not 
know what a green job. Call me up if you have a green job, I 
would love to hear from you. I yield back.
    The Chairman. OK, I thank you and----
    Mr. Sloan. Congressman, I work for Opower, it is an energy 
efficiency software company, I have a green job.
    The Chairman. Sir, the time is up, our time is up. Mrs. 
Bordallo?
    Ms. Bordallo. Thank you very much, Mr. Chairman. I have a 
question for Mr. Martin and a couple for Mr. Sloan. Very 
curious about your 60 Plus Association, I guess I could belong. 
Is everybody over 60?
    Mr. Martin. No, ma'am, but we can wait for you to turn 60.
    Ms. Bordallo. Thank you. Well, Mr. Martin, as seniors are 
facing higher energy costs the Republican budget would also end 
Medicare as we know it while keeping in place the tax subsidies 
for oil companies. So do you support the cuts to Medicare in 
the Republican budget while keeping in place oil company tax 
subsidies? Just yes or no.
    Mr. Martin. I believe you said Medicare, ending Medicare as 
we know it? I believe Medicare as we know it was ended about a 
year ago with a half a trillion dollar cuts to Medicare.
    Ms. Bordallo. That is your answer?
    Mr. Martin. Yes, ma'am.
    Ms. Bordallo. Thank you, Mr. Martin. Mr. Sloan, I am a 
member of the Armed Services Committee and I understand that 
you have served two combat tours in Iraq and Afghanistan, is 
that correct?
    Mr. Sloan. That is correct.
    Ms. Bordallo. Yes, and you have also been awarded a bronze 
star and a purple heart?
    Mr. Sloan. Yes, ma'am.
    Ms. Bordallo. And I want to thank you for your service to 
our country.
    Mr. Sloan. Thank you very much.
    Ms. Bordallo. Now over the past four years we have sent 
nearly $1.3 trillion overseas to import oil and oil imports 
that have grown to account for nearly half of the U.S. trade 
deficit. How does that massive wealth transfer overseas impact 
our national security?
    Mr. Sloan. It impacts us in a variety of ways. The most 
obvious one is that when we keep sending billions of dollars 
overseas to buy oil, in an oil market even if we were to 
ratchet up our supply to reasonable levels, reasonable 
projections, we would still be contributing to that same oil 
market that enriches Iran, enriches Saudi Arabia, enriches 
countries that do not have our best interests at heart.
    And when we are tied to the Middle East or we are tied to 
countries that are destabilizing and unstable, which about nine 
of the ten largest oil exporters or those countries that have 
the largest oil reserves are destabilized, when we are tied to 
those areas we will continue to send young men and women 
overseas to sacrifice for those resources. It is the only way 
that we can actually, you can talk about coal and solar, you 
can talk about wind, you can talk about all these things that 
don't have anything to do with gas prices. Those are for 
electrification, that is how you turn your lights on in your 
house, it is not how you power your car.
    In 2004 in Afghanistan I was severely wounded. I don't tell 
this story very often, but I woke up four days later in Walter 
Reed. Did not get out of the Army, went back overseas. I truly 
care about this country. And I would implore everyone on this 
Committee to have a real discussion about this. We had horrible 
gas prices in 2008 that most people seem to forget because of 
the even more horrible banking crisis.
    This is not, you cannot obfuscate this with talks about 
solar or wind and whether they are cost competitive. That is a 
completely separate category. This is about oil and it is about 
where we get it from. This is about being tied to regions that 
have a lot more oil than we do, that will always have a lot 
more oil than we do, that can produce it significantly cheaper 
than we can ever produce it, which means they can pull their 
oil off the market while allowing us to flood the market with 
our oil that costs us more to produce.
    They will get almost the same amount of profits, they will 
let us deplete our resource, they will keep their resource 
intact, and 10, 15, we are not really sure how long, we will be 
totally dependent the same degree we are now on Saudi Arabia, 
on other OPEC countries, and they will be able to hammer us 
into the ground. This is a national security problem.
    Ms. Bordallo. Thank you, Mr. Sloan. I only have about a 
minute left and I do have another question, Mr. Chairman. In 
early April the House passed legislation to prevent EPA from 
moving forward with regulations to reduce global warming 
emissions. But no matter what you think about global warming, 
that legislation if enacted would have the consequences of 
increasing our oil use and costing consumers more money at the 
pump.
    The bill would remove EPA's authority with any future 
regulations to reduce oil use from cars or trucks and in 
addition it would prevent EPA from doing anything to reduce oil 
use from planes, trains, or boats. Now do you think that we 
should be unilaterally disarming EPA of its ability to set 
standards that would reduce oil use at a time when gas prices 
are near record highs, Mr. Sloan?
    Mr. Sloan. I can't see how that would make any logical 
sense.
    Ms. Bordallo. All right, and one other part of that 
question real quick, don't you agree that taking steps to 
reduce our demand for foreign oil by millions of barrels per 
day enhances our national security?
    Mr. Sloan. Absolutely.
    Ms. Bordallo. Thank you. Thank you, Mr. Chairman, I yield 
back.
    The Chairman. OK, thank you. Mr. Coffman of Colorado.
    Mr. Coffman. Thank you, Mr. Chairman. And, Mr. Sloan, I 
want to thank you for your service to our country. I think we 
share the same view of the Middle East. I served in the United 
States Marine Corps in the first Gulf War and the Iraq War, and 
so I share your view that I don't want America to be dependent 
on foreign sources of oil, particularly that coming out of the 
Persian Gulf.
    We probably differ in the sense that, I don't know if you 
read the Wall Street Journal yesterday, it talked about the 
increasing cost of getting oil out of Saudi Arabia, Kuwait, and 
Iraq, that they are running out of their lighter crude and now 
will have to go to their heavier crude, and that will increase 
their costs, and I think we have some great drilling 
technologies in the United States that are far more 
environmentally responsible than they have been in the past in 
terms of getting oil out of this country.
    So I would differ with you and I think that we can become 
more independent here if we want to. But one question I have of 
you is that on the issue of transportation fuels that are the 
subject of today's hearing, what is your view of ethanol? And 
let me tell you my concerns, and I am certainly interested in 
alternative energy. I see, I hope we could use natural gas as a 
bridge transportation fuel to get to something beyond gasoline 
in the future.
    But I think my question is, relative to ethanol, I mean 
here we are using basically a commodity, an agricultural 
commodity that is used for food, it has driven food prices up, 
it is, even other crops by displacing them because of the 
extraordinary subsidy to do more corn to produce more ethanol, 
and I don't see the environmental benefit of ethanol over oil. 
So I would like your comments on ethanol and if you think that 
is the right direction for America to go?
    Mr. Sloan. Absolutely. I would say that corn based ethanol 
has significant limitations, and everything you listed right 
there are all reasons why it should probably not be something 
that we advocate a tremendous amount of resources to. I think 
you should, like the best place to look is at the Navy right 
now, that is looking at a lot of other drop-in biofuel that 
have different feedstocks. Camelina, a mustard seed, and they 
are investing very heavily in a private company called Solazyme 
that they see as a way to displace a tremendous amount of their 
reliance on oil for jet fuel.
    And it is companies like that that I see where you can 
actually drop in the biofuel. It has got a feedstock that is 
not used for food, it doesn't impact world food prices, but is 
one that can be grown right here in America and can be dropped 
in to the existing infrastructure, so that we don't have to 
change, you know, the way people get their gas so to speak, you 
can drop it right into a gas tank.
    Mr. Coffman. And what is your view of natural gas as a 
transportation fuel? It is a mature technology, we lack the 
distribution for it with the exception of fleet vehicles today 
in the United States. But there is a much cleaner burning fuel 
than gasoline. It is plentiful in the United States; in fact, 
there has been reports that we have a hundred-year supply of 
natural gas in the United States. I mean what is your view of 
natural gas as a transportation fuel as a way to reduce foreign 
dependence on oil?
    Mr. Sloan. Sure. Congressman, I think you hit the nail on 
the head. It is mostly reserved for fleet vehicles at the 
moment. I think with the Marcellus Shale and the Barnett shale 
and if we can make sure that we do not, with gas fracking if it 
does not result in increased environmental deterioration of the 
surrounding country, I think it is an excellent bridge fuel. I 
think it is more located in easier places to get to.
    And if it turns out, there is some worry that shale gas 
peaks quite quickly and then depletes very fast, and that is a 
worry. But absolutely, if you can, the problem with it though 
is you do have to change the existing infrastructure. Whereas 
if you can develop drop-in biofuels you can kind of keep the 
same existing gas station model without having to alternate, 
and the interior engine, the car engine, the same way. But I 
think it is definitely something that should be put on the 
table and should be looked at.
    Mr. Coffman. Right. Ms. Borelli, a final question and not 
much time, but it seems sometimes I think you mentioned, you 
used the term elite. And I come from grew up in a working class 
neighborhood and it seems sometimes that rich people hug trees 
a little bit tighter than poor people. And on this ethanol 
issue and using food as a transportation fuel, I wonder if you 
might comment on that.
    Ms. Borelli. Well I know ethanol, to use corn for example, 
corn prices have gone up. Forty percent of our corn that is 
grown in our country is used for ethanol. That is corn that we 
could be putting on our tables for our families, and that is 
part of the reason why it costs so much. But, you know, I say 
we should explore all efforts that are going to keep gas prices 
down, and I don't see how forcing refineries to use ethanol, it 
is a mandate so you have to make special blends with ethanol 
products in order to do what the government wants them to do as 
far as gasoline.
    Mr. Coffman. Thank you. And certainly we want to strike an 
environmental balance. Thank you so much for your testimony.
    The Chairman. OK, thank you. Mr. Lujan of New Mexico?
    Mr. Lujan. Mr. Chairman, thank you very much. And, Mr. 
Martin, thank you for your service as well, sir. I don't know 
that we have acknowledged that today, and if we have I 
apologize for repeating it but it is worth repeating sometimes, 
sir. Mr. Martin, I appreciate your how candid you have been 
this morning. I think that you have been giving us some 
straight talk and I appreciate that, sir, very much. You 
support increasing domestic production of oil and gas in 
America, is that correct, sir?
    Mr. Martin. Oh yes, sir.
    Mr. Lujan. And does it make sense to you, Mr. Martin, that 
if we would increase domestic production of gas and oil in 
America we should keep it in America?
    Mr. Martin. The product?
    Mr. Lujan. Sure, so if we are going to produce more we 
should keep it in America to help American families and 
American businesses?
    Mr. Martin. Yes, sir, and the OCS also, Outer Continental 
Shelf.
    Mr. Lujan. Ms. Borelli, does that make sense to you that if 
we produce, I believe you support increasing production in 
America?
    Ms. Borelli. I support increasing production, but I also 
think that if we could also supply it as a world product, so 
that way we can bring in money and revenue here to you United 
States, and developing it here in this country will help keep 
prices low for Americans.
    Mr. Lujan. So, Ms. Borelli, you believe that if America 
produces more oil and exports it that is going to keep prices 
lower at the pump?
    Ms. Borelli. Yes I do.
    Mr. Lujan. So if we produce more oil we shouldn't keep it 
here to lower the price at the pump, provide that guarantee?
    Ms. Borelli. There is a high demand for oil products around 
the world globally, so why should we be the only ones 
importing? We should be exporting as well to meet the world 
demand for oil products.
    Mr. Lujan. I would suggest so that we help Americans at the 
pump. I thought that is why we were here today is that we are 
going to talk about how American families are being hurt with 
high energy prices, right?
    Ms. Borelli. That is what we are talking about, yes.
    Mr. Lujan. I appreciate Mr. Martin's position there because 
if we are going to produce more oil we should keep it here at 
the very least and offer some relief for the American people at 
the pump. Ms. Borelli, do you support energy efficiency 
programs or weatherization programs?
    Ms. Borelli. If they are cost effective. The issue with the 
light bulbs for example, I don't see that as cost effective. 
CFLs, they cost more and they don't fit, some of them don't fit 
our traditional outlets and lamps.
    Mr. Lujan. What about----
    Ms. Borelli. They cost a lot more than a regular 
incandescent light bulb, plus they contain mercury.
    Mr. Lujan. Ms. Borelli, just because time is running out, 
what about then, you know, let us agree there then and I will 
say I support that, what about insulation or weather stripping, 
things that are very cost effective?
    Ms. Borelli. Well that is for the individual to do, that is 
not for the government to mandate people what to do with their 
homes.
    Mr. Lujan. So if we are talking about helping people with 
the high cost of energy prices----
    Ms. Borelli. If a person wants to lower their utility 
bills, they will put in new windows and put in insulation, 
whatever they need to do to keep their homes warm.
    Mr. Lujan. I appreciate that, Ms. Borelli, and----
    Ms. Borelli. Thank you.
    Mr. Lujan. And, Mr. Chairman, we all agree that energy 
costs are hurting American families, and if we are going to 
talking about increasing domestic supplies, just about a week 
and a half ago, two weeks ago, not only in this Committee did 
we vote it down but we voted down on the Floor of the House of 
the Congress that says if we are going to keep oil, if we are 
going to produce more oil here in the country we should keep it 
here to help American businesses.
    I think at the very least if we are going to talk about 
this let us do something real to help the American people with 
relief at the pump. If we are going to suggest that American 
families are hurting with the high cost of energy in their 
homes, why are we going to cut weatherization programs and 
energy efficiency programs? We should be doing all that we can 
to be able to put more dollars into creating jobs in America 
but also helping people with their wallets. That just makes 
sense, it is common sense, it is one of those things that we 
should try to do.
    And, you know, I feel bad for that young lady with the 
inhaler, but, Mr. Chairman, if Medicare goes away, we are going 
to have bigger problems with that inhaler than anything else, 
and so I certainly hope that we can find some agreement there 
so that we are truly looking after a lot of our seniors that 
need some help with the high cost of inhalers and prescription 
drugs.
    And just going back to what we talked about with 
speculation, this notion that speculation is part of the 
process, the rules that have been shred and the budgets that 
have been slashed that allows for the policing on speculators 
to help provide relief for American families, as was suggested 
before by my colleague Mr. Welch, we could lower the cost at 
the pump by 70 to 80 cents by just policing speculators, by 
going right after them. This notion that the executive from 
Exxon as well as what was identified by Goldman Sachs that as 
much as $25 a barrel is attributed to speculation is just 
ridiculous.
    And if we want to do something short term, we should put 
our money where our mouth is and do something about it and 
crack down on those areas. And, Mr. Chairman, I would even 
suggest that maybe there is even something we could do from the 
Committee, a joint letter of sorts along with what Mr. Welch 
has suggested to be able to crack down on those speculators as 
well as do some other things to be able to really bring relief 
to the American people. Thank you very much, Mr. Chairman.
    Mr. Gohmert [presiding]. OK, thank you. The gentleman's 
time is expired. And you made some very good thoughts for 
seniors and so maybe we can undo ObamaCare and restore the $500 
billion that the Democrats cut from last year's budget.
    Mr. Lujan. If the Chairman would yield?
    Mr. Gohmert. Are you for that?
    Mr. Lujan. If the Chairman would yield?
    Mr. Gohmert. Yes.
    Mr. Lujan. Mr. Chairman, I certainly hope that as we look 
at providing relief to the seniors in America that we don't 
dismantle Medicare and that we truly pay attention to seniors.
    Mr. Gohmert. OK, well reclaiming my time, thank you. We saw 
that with the $500 billion in cuts to Medicare last year. At 
this time the Chair yields to Mr. McClintock, five minutes.
    Mr. McClintock. Well I dare say that my friend across the 
aisle is himself a speculator, I strongly suspect, if he 
believes, if he speculates that the price of the gallon of gas 
at the corner pump is going to go up 10 cents tomorrow he will 
probably fill up his tank tonight, that is speculation. If he 
thinks the price is going to drop dramatically at the pump, he 
will probably put off filling his tank until tomorrow. That is 
speculation.
    Speculators drive the prices up faster when they are 
expecting shortages, they also drive the price down faster when 
they are expecting surpluses. And I would advise my friend of a 
very simple economic fact, when something is plentiful it is 
cheap, when it is scarce it becomes expensive. And I do not 
understand for the life of me the notion that somehow by 
making, by that we reduce our dependence on foreign oil by 
locking up America's vast oil reserves.
    Mr. Lujan. Will the gentleman yield?
    Mr. McClintock. No I will not. Ms. Borelli, you have 
studied this at great length. I am told that our oil shale 
reserves alone are three times the size of the proven reserves 
in Saudi Arabia. Can you give us some enlightenment on this 
subject?
    Ms. Borelli. Well what I do know is what the Congressional 
Research Service has reported, and that information is in my 
full testimony, but one of the things they do point out is that 
regarding, and I only have a few numbers here, 163 billion 
barrels of recoverable oil in the United States, 2,047 trillion 
cubic feet of natural gas in the United States----
    Mr. McClintock. And how much of that is locked up right now 
by government policy?
    Ms. Borelli. Too much of it.
    Mr. McClintock. Most of it would you say?
    Ms. Borelli. Yes.
    Mr. McClintock. And yet somehow we are supposed to reduce 
our reliance on foreign oil by sitting on those vast American 
resources. We are also told that we are supposed to subsidize 
cost, subsidize efficiency measures such as insulation and the 
like----
    Ms. Borelli. I don't agree with that.
    Mr. McClintock. Nor do I. It seems to me that if something 
is cost effective people will do it on their own and don't have 
to be forced to do it.
    Ms. Borelli. Right.
    Mr. McClintock. If we have to force people to do it, maybe 
that is nature's way of telling us it is not cost effective and 
nobody in his right mind would do it without government either 
bribing them or putting a gun to their heads.
    Ms. Borelli. Right.
    Mr. McClintock. We are also told that we should look to 
substitutes for petroleum, and I wholeheartedly agree with 
that. But it seems to me when we are told biofuels are the 
answer, obviously the most common biofuel right now is ethanol. 
And as I look at ethanol production it requires one acre of 
corn to produce 350 gallons of biofuel such as ethanol.
    Ms. Borelli. Right.
    Mr. McClintock. One acre for 350 gallons. We consume 150 
billion gallons of gasoline in this country every year, which 
means we would have to put 428 million acres of farmland into 
production solely for biofuels just to meet our current 
consumption. That is one-and-a-half times the entire acreage we 
have for all crop production in the United States. When I look 
at these figures and hear biofuels are the answer, I have to 
wonder if we are not arguing with the lunatic fringe of our 
society.
    Ms. Borelli. Well this is part of the war on fossil fuels. 
You have to look at what the costs are involved and the 
consequences of these actions and the costs and how they are 
going to harm Americans. And as you mentioned and as I 
mentioned earlier before regarding ethanol, you are taking food 
off the table from families, you are making corn prices higher, 
farmers are paying more for feed to feed their animals, so it 
is a ridiculous effort as far as----
    Mr. McClintock. And we would have to take every acre in 
America that is currently being used for crop production out of 
production----
    Ms. Borelli. Right.
    Mr. McClintock. And add half again more on top of that just 
to meet our current gasoline consumption to replace it with 
biofuels. I mean this is insane. It seems to me that the most 
logical replacement for petroleum is hydrogen for internal 
combustion. Pretty simple process, you just need lots and lots 
of cheap electricity. We have an ocean full of the stuff, we 
just helpful to separate it out. That requires cheap 
electricity.
    The cheapest forms of electricity that we have available to 
us are hydroelectricity, coal, and nuclear, and yet those are 
the three forms of electricity that government policy is 
deliberately preventing from usage. The most expensive by far 
are wind and solar. Those are the ones that we are pouring 
heavy subsidies into. Does that make any sense to you?
    Ms. Borelli. No it does not make any sense, sir. And, you 
know, for us to be propping up renewable energy that is not 
able to stand on its own is doing a disservice to our country 
because you are going to cause consumers to pay more for their 
energy.
    Mr. McClintock. Amen.
    Mr. Gohmert. The gentleman's time is expired. The Chair 
recognizes the gentleman from California, Mr. Costa, for five 
minutes.
    Mr. Costa. Thank you very much, Mr. Chairman. I am somewhat 
perplexed with regard to the hearings, I mean I understand the 
purpose of the Subcommittee hearing to allow people to vent. 
These are similar types of hearings that have been held year 
after year after year going all the way back to the first gas 
lines in 1973. The debate and the rhetoric here I think speaks 
more to why we can't come together with a comprehensive energy 
plan than talking about things that we should do.
    Congressman Murphy and I and others have a bipartisan 
measure that would expand the development of our oil and gas 
reserves on public lands both onshore and offshore and to use 
the revenues from those to talk about a long-term transition to 
a more robust renewable portfolio as well as utilizing what we 
have here. But we have a cheap energy policy in this country 
more or less with administrations of both parties. And we keep 
pretending that somehow we are going to reduce the cost of 
fuel, which I think is somewhat of an interesting discussion.
    But there is a cartel out there. And we can continue to 
produce and I support producing more oil and gas, but the 
reason that there is a cartel out there is because it is in 
that cartel's interests to keep prices at a certain level. So 
the more we produce, which we should, they are going to produce 
less because they want to keep the markets at certain levels. I 
don't know why we ignore that fact. The cartels in the Middle 
East want to keep oil at a certain price where it is high 
enough to keep them accustomed to the lifestyle they have grown 
used to but yet doesn't superheat markets or create economic 
dislocations to dramatically dislocate the status quo.
    We keep pretending that there are somehow magic bullets to 
our energy situation but it really requires us as two political 
parties to come together and to acknowledge that some of our 
rhetoric, which sounds good, makes sound bites, whether you are 
talking about ``Drill, Baby, Drill'' or lose it or use it, but 
that doesn't constitute an energy policy. And I don't know why, 
you know, it is disingenuous to the witnesses and to Americans 
out there who really just would like to see a common sense 
energy policy based upon short-term needs and long-term focus 
where we need to go. And that is what has been lacking in this 
discussion and debate it seems to me for over 30 years. Mr. 
Sloan, would you care to comment in terms of my observations?
    Mr. Sloan. I would love to. I agree with what you said 
right there. I think we need a common sense energy strategy, 
and that undoubtedly will mean that we will produce more oil, 
that we will take advantage of the resources here at home. But 
we can't just ignore the fact that OPEC is out there and that 
they do control oil. They will withdraw supplies----
    Mr. Costa. It is fungible, right, it is a world market, 
right? I mean am I missing something here?
    Mr. Sloan. And we don't have a national oil company, we 
can't force people to drill just because we open lands. 70 
percent of the lands that are leased right now are not being 
drilled. In 1973 and 1979 when OPEC sent prices skyrocketing 
America reacted by reducing demand, and over the next seven 
years we cut demand by 17 percent, we cut oil consumption by 17 
percent, net imports fell by 50 percent, net imports from the 
Persian Gulf fell by 87 percent, and our GDP rose by 27 
percent, all while a Republican was in the White House. From a 
former soldier's standpoint, if I could say one thing, this 
cannot be a political issue. This is way too important for 
that. And the more it becomes, the more rhetoric that is thrown 
out there the more it becomes that, and it will have a huge 
impact on our national security and our----
    Mr. Costa. It is mindlessness. I mean to anyone who is 
listening, I just get frustrated here. Mr. Chairman, I have 
been a part of this discussion and debate now for seven years 
and it makes no sense that we are talking past one another. You 
know, it, anyway my time is expired. I thank you for your 
comment. Well, no, it hasn't expired. Go ahead, finish.
    Mr. Sloan. No, that is, I think I have said enough.
    Mr. Costa. I guess I have said enough. Thank you very much.
    Mr. Gohmert. Thank you, Mr. Costa. At this point the Chair 
recognizes Mr. Tipton for five minutes.
    Mr. Tipton. Thank you, Mr. Chairman. And I applaud Mr. 
Costa's statements. I think that we too need to all get to get 
together in terms of a comprehensive energy policy for this 
country, and it is how we get there is part of the discussion. 
I had a couple of questions, Mr. Sloan, maybe you could help me 
with this in terms of you had said that we are producing more 
than since the year 2003, and then we had heard Congressman 
Fleming recognize that in '72 we were producing 9 billion 
barrels a day and we have now dropped down to 5. The Geological 
Service has noted that we have 1.5 trillion barrels that can be 
liberated in terms of development through technology. Do you 
believe in supply and demand?
    Mr. Sloan. Absolutely.
    Mr. Tipton. Don't you, in terms of that? And I think we 
have actually got a pretty good example of that when we talk 
about natural gas prices, that we have an abundance of in this 
country. Wouldn't it be sensible if we were able to responsibly 
develop those resources in this country? We would have no 
importation costs, transportation costs, that we would be able 
to lower costs of gas in this country?
    Mr. Sloan. If you are basing gas prices right now on the 
idea that there is not enough supply out there. If I could read 
to you a quote from Rex Tillerson who is the CEO of ExxonMobil, 
in an interview in April he said, ``The markets are well 
supplied today. If you look at inventory levels here in the 
U.S. and around the world, they are in strong condition.'' So 
supply is not the issue. What is reflected is the price and the 
uncertainty around what might happen in the coming months to 
oil supplying countries.
    Mr. Tipton. Which speaks to the very point that I think, 
and I applaud your service and also Mr. Martin as well, that 
uncertainty is based around our reliance on Middle East oil. So 
if we develop it here at home wouldn't that be common sense?
    Mr. Sloan. If you don't believe in free markets. The oil 
companies are not national companies, America does not have 
one. ExxonMobil will sell the oil that it produces at the 
highest price.
    Mr. Tipton. Right.
    Mr. Sloan. So as long as OPEC controls the oil and the oil 
supply and can kind of keep prices where it is, which is 
exactly what happens.
    Mr. Tipton. Yes, let us expand that just a little bit. The 
value of a barrel of oil is based off of the U.S. dollar, 
correct?
    Mr. Sloan. Correct.
    Mr. Tipton. So would you see it a failure of the Federal 
Government, specifically the Fed, failing to stand up and 
strengthen the U.S. dollar, allowing it to weaken, which is 
ultimately affecting gas prices, hurting senior citizens, 
hurting struggling families here at home?
    Mr. Sloan. I think the impact of the Fed and how they 
address this issue is outside the purview of my knowledge, and 
to maintain my credibility I can't offer an answer on that.
    Mr. Tipton. But maybe, and this is open to anybody. You 
know, we all want clean air, we all want clean water, but when 
we look at the EPA they have multiple fuel standard mixtures 
that they are putting out. How does that impact the price of a 
gallon of gasoline?
    Ms. Borelli. It impacts on the production and, of course, 
they are going to pass that cost on to consumers.
    Mr. Tipton. Right, and when is the changeover of that, Ms. 
Borelli? Is that typically when we begin our driving seasons?
    Ms. Borelli. There are certain blends for weather. 
California has their own thing going with their certain blends 
for emission purposes. So it is different in all the states.
    Mr. Tipton. So would it be sensible to you that we talk to 
the EPA about not having multiple standards that apply 
everywhere going around the country, that we are actually 
hurting our citizens, that we can create win-wins?
    Ms. Borelli. Yes.
    Mr. Tipton. And more sensible regulations in the 
marketplace?
    Ms. Borelli. I agree, I mean the EPA is part of the problem 
and the EPA is part of this war on Obama's fossil fuels, they 
are regulating greenhouse gas emissions.
    Mr. Tipton. Right. And, you know, we had heard the Ranking 
Member talk about if we do start to produce, I would probably 
challenge that number a little bit, I think it will be 
significantly higher if we do produce more in this country, but 
about being able to get a nickel a gallon. You know, I carry 
around, maybe you guys do too, I have a little customer loyalty 
card at Safeway, City Market, Maverick, to be able to get a 
nickel or dime off a gallon, the Ranking Member had mentioned 
that if we generated some more here, and again I think it would 
be more, save another nickel a gallon. Is that nickel important 
to senior citizens, Mr. Martin?
    Mr. Martin. Yes, very much so. Pardon me, but if I could 
also address this business of foreign sources of oil, and Mr. 
Sloan mentioned, of course, Iran and others and Saudi Arabia, 
but Iran specifically. This is a, the fact that we rely on them 
for so much of our oil, and their leader Ahmadinejad if he 
decided to sink a ship in the Strait of Hormuz, we are hurting 
and biofuels are not there yet. We depend on those sources of 
energy.
    We should not, because again I think somebody referred to 
the long gas lines in '73 or '74. Well about the time President 
Carter was there we had 37 percentile I believe it was, and I 
keep using the word percentile because President Carter, and I 
am trying to quote him correctly here, in a televised press 
conference President Carter said it is a 37 percentile, my job 
and my goal will be to see that it does not rise one more 
percentile, to 38. Now it is more like 68. And that is not just 
blaming President Carter, there have been four or five or six 
presidents since then on both sides. But we have to wean 
ourselves away from this dangerous dependence on foreign 
sources of oil. It is a national security issue.
    Mr. Tipton. Thank you, Mr. Chairman.
    Mr. Southerland [presiding]. You are welcome. The 
gentleman's time is expired. And we now hear from the gentleman 
from Louisiana, Mr. Landry.
    Mr. Landry. Ms. Borelli, thank you, thank you for being 
here. I cannot tell you how happy I am that you are here and 
that you are speaking up for those Americans that a lot of my 
colleagues on the other side of the aisle claim to want to 
represent. You know, I am from Louisiana, our minority 
percentage is about 33 percent. I come from a little town in 
St. Martinville, which is about 55 percent black. And let me 
tell you, I have friends that only have a high school diploma 
who were, who were, making $60 and $70,000 a year, that don't 
have a job anymore because of the effects of this de facto 
moratorium.
    So thank you so much for coming, I just can't tell you how 
pleased I am. And, you know, it amazes me that the other side 
claims that we are irresponsible for cutting out direct 
subsidies for electric cars. Today in the USA Today, today, 
headline, Americans say no to electric cars even in high gas 
prices. You know, this issue, I share Mr. Costa's feeling, it 
just baffles me why we can't fix it, and it is such, it is so 
easy to fix. So again, thank you. Mr. Sloan, how is it that 
when other countries promote their ``Drill, Baby, Drill,'' it 
affects gas prices but yet you claim that if we implement our 
``Drill, Baby, Drill,'' it doesn't affect gas prices?
    Mr. Sloan. I would say because other countries have the 
proven reserves to actually back that up, and that when they 
shout ``Drill, Baby, Drill'' and increase supply, that it 
actually doesn't. OPEC is a cartel that controls the market. 
They will reduce supply and----
    Mr. Landry. OK, well let me ask you this. Couple of things, 
you know, number one, could you tell me how many of the major 
oil and gas companies that Mr. Markey loves to put in his gun 
sights are members of OPEC?
    Mr. Sloan. OPEC is a country based organization.
    Mr. Landry. OK, so how many of those major oil and gas 
companies are----
    Mr. Sloan. The ones based in the United States, absolutely 
none.
    Mr. Landry. Right, and so if we destroy those major oil and 
gas companies that we have domestically, OK, then does that not 
put us at a greater disadvantage to OPEC? Are they not a buffer 
between us and OPEC?
    Mr. Sloan. No, they are not American national oil 
companies. They are international oil companies that sell 
their----
    Mr. Landry. But they are private oil and gas companies----
    Mr. Sloan. Exactly, they will sell, they sell their oil----
    Mr. Landry. They are here domestically, they drill 
domestically, and do you know that we have the ability to 
increase our domestic production capacity to such an extent 
that we can have an effect on the market?
    Mr. Sloan. Congressman, the examples I know where we have 
actually had significant effect in breaking OPEC's kind of 
control in the market is when we have reduced demand, not 
increased supply. It seems pretty simple to me. You have a 
product that----
    Mr. Landry. Well reduce demand, so you basically tell 
Americans, no they can't drive to Florida or people can't fill 
up their boats when we are awash in natural gas. This week, 
this week, we just permitted in Louisiana the first LNG export 
port, so we are going to export our natural gas.
    Mr. Sloan. Sure.
    Mr. Landry. All right, so we are going to become a net 
exporter of natural gas, so we have the ability to transform 
our transportation industry and using natural gas instead of 
gasoline and diesel but yet you say, go to electric cars, go to 
wind, go to solar?
    Mr. Sloan. I am talking about, we started this conversation 
on OPEC. OPEC controls oil, it does not control natural gas.
    Mr. Landry. Right, but we have the ability, but it is a 
fossil fuel.
    Mr. Sloan. If you are advocating for the complete--but the 
fossil fuel, oil goes into cars in terms of gasoline. We would 
have to do a complete shift if we want to use natural gas.
    Mr. Landry. To what? But that is not true. We would have to 
do a complete shift to go to electric cars but we don't have to 
do a complete shift to go to natural gas. In fact, we could let 
Americans drive the car that they currently drive and allow 
them to convert that vehicle into natural gas much cheaper than 
we are pouring billions of dollars of your money and my money 
into electric cars that we are going to plug into a system that 
is already failing. But yet you want to attack fossil fuels, 
you want to attack natural gas, you want to attack oil. We have 
the ability here in this country, OK, we have the capacity, 
what we don't have is the will.
    Mr. Sloan. Congressman, if you look back at my testimony I 
am pretty sure I don't mention natural gas. I mention oil, and 
I talk about the oil cartels and how they control the supply, 
and right now in this country----
    Mr. Landry. But how do you support the companies that you 
are going to want to drill for natural gas, OK, if you don't 
allow them to drill for oil as well? Do you understand? They 
need one and the other. In fact, there are a lot of wells that 
when you drill you get natural gas and oil.
    Mr. Sloan. Exactly, and there is a lot of natural gas that 
is stranded, there is a lot of associated natural gas. I 
understand the fundamentals of natural gas. But you are also 
back to your point, you are going to have American people, low 
income seniors go and convert their cars to natural gas right 
now, is that what you are advocating for?
    Mr. Landry. Well it certainly would be a lot cheaper than 
what we are spending on electric cars and on solar and on wind. 
And I am out of time.
    Mr. Southerland. Thank you. I now recognize Mr. Runyan for 
five minutes.
    Mr. Runyan. Thank you, Mr. Chairman. And I thank all of you 
for your testimony, and, Mr. Martin, Mr. Sloan, thank you for 
your service to this country. Ms. Anderson, I want to start 
with you. I represent a very large number of recreational and 
commercial fishermen, and they drive about $30 million into the 
economy here in New Jersey. And whether it is through excessive 
fishing regulation or high gas prices I talk to them, I was 
just there last weekend and saw all these charter boats, 
beautiful, Saturday afternoon, just sitting at the dock.
    Can you, you know, just talk about the jobs that are lost 
and who that is really affecting? Because I get it from a few 
charter boat captains that I have fished with my whole life 
since I have been there in New Jersey that really say this is 
not only going to affect that aspect. And to add another 
question on that, how many boats have actually left your dock 
because of the situation we are in?
    Ms. Anderson. Usually when we have the high gas prices it 
definitely affects, you know, the cost of the trip. And so 
therefore if you cannot pass that on to other, to the customer 
because they will not want to come on the trip. They don't like 
having to pay the surcharge. And so that keeps the boats at the 
dock. As far as jobs, for every boat that operates or every 
person that is working on a boat, there are six jobs on land 
that support that job.
    So we are talking for charter boats it is usually two or 
three people, head boats, you know, five or six, but then it is 
times six onshore. So it does affect, you know, quite a few 
people. It doesn't just affect the employees on the boats. And 
so that is something that folks need to take into 
consideration. But as far as the gas prices, yes it keeps boats 
at the dock, there is no doubt about it.
    Mr. Runyan. Do you have a number of how many boats have 
actually left your dock? Because I notice that where I am at 
there are empty slips all over the place that I know a few 
years back were full.
    Ms. Anderson. Yes, right now we have out of 35 slips we 
have three open, OK, where normally in good times we would not 
have any open. But we are blessed to be one of the better 
operations there in the area, so when folks are going to, when 
we have openings we have folks that will move in and take those 
places. And that makes empty spaces at other docks, so there is 
a problem definitely. We are not seeing that particular problem 
as much at our dock because ours is popular, but it does affect 
us and we are down now.
    Mr. Runyan. And just quickly, a little bit off the subject, 
not like it hasn't happened here today, but is it more fuel 
prices or fishing regulation, or really a combination of both 
of them?
    Ms. Anderson. It is a combination. Mostly it is fishing 
regulations. You know, with the fishing regulations being 
implemented now instead of a six-month season in the Gulf we 
have this year for our red snapper we are going to have 48 
days. We have asked the Gulf Council to transfer the 1.2 
million fish that were not harvested in 2010 into the 2011 
season. They knocked that back to the Science and Statistical 
Committee last week, they started not to allow that, but now 
they have given us 400,000 pounds instead of 1.2, even though 
they actually with the new data that they had they could have 
given us 2 million pounds.
    Mr. Runyan. Thank you. And, Mr. Sloan, I know, I think what 
we are lacking and I think many other Members agree with, that 
we are lacking a solid energy policy. You know, I see where you 
go electric cars, great, where are we getting the energy to 
power them? Bottom line that is going to increase electric 
demand, that is going to trickle right back down to our 
seniors. How are we going to balance this without a sufficient 
energy policy?
    Mr. Sloan. Well I think Congress needs to create an 
effective energy policy. And I am all for balance. I think that 
there are arguments made on both sides of the aisle today have 
points. On both sides there are, I would say, comments that 
just sort of skew the debate. But we need an effective energy 
policy, and we need it for our economic security and our 
national security. And we should look at all forums, we should 
look at the natural gas that in the Haynesville shale, we 
should look at the Marcellus Shale.
    We should look at doing what the Obama Administration is 
doing, Obama Administration has opened leases in the Gulf since 
the moratorium. We also should look and follow the advice of 
our military and look at how the Navy is looking at advanced 
biofuels companies to change kind of to basically create 
another alternative to oil for vehicles that you fly and to 
drive your cars.
    Mr. Runyan. Chairman, my time is expired.
    Mr. Southerland. Thank you, we will now recognize the 
gentleman from Ohio, Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman. I appreciate being a 
part of this hearing today on gas prices and how they are 
affecting Americans. Particularly in my district I can tell you 
that I spent some time during our last work period visiting 
with patrons at service stations paying over $4 a gallon for 
gas. I talked to independent truckers that it cost them over 
$800 to fill up their trucks. Just a few years ago they were 
paying roughly half that amount.
    Young people that are having to quit their jobs because 
they can't afford the gas to get back and forth to work. 
Families that are suffering, even job seekers that are saying, 
how do I find a job when I can't even afford to drive around 
and drop off applications to prospective employers? Some of the 
debate today just absolutely boggles my mind. The apparent lack 
of understanding of the simple laws of supply and demand. Let 
me ask a quick question. Have any of you ever seen a situation 
where we raise taxes on a commodity and it lowers the price?
    Ms. Borelli. No.
    Mr. Johnson. Any of you panel members ever see that?
    Ms. Borelli. No.
    Mr. Johnson. This idea that we can simply tackle this 
problem by taking away subsidies if you want to call them 
subsidies or eliminating tax credits for the oil companies, 
that that is somehow going to magically reduce the price of gas 
at the tank. What effect do you believe, as a corollary to 
that, what effect do you believe that increasing the domestic 
supply of oil, what do you think that would do to the price of 
gas?
    Ms. Borelli. You increase the supply of anything the cost 
of that product would drop down.
    Mr. Johnson. OK.
    Ms. Borelli. And so if we open up all of the areas in our 
country to allow for drilling and exploration, that will reduce 
and at some point it will reduce the cost of gas prices in our 
country.
    Mr. Johnson. Sure. And, you know, we have heard some 
rather, I would almost call it silly debate about this issue of 
speculation. And I think Mr. McClintock made a very good point. 
Speculators lower prices when they anticipate that the supply 
is going to increase, they raise prices when they anticipate 
that the supply is going to decrease, that is the way that game 
is played. If we increase domestic production of oil, thereby 
increasing the supply, do you agree that that will tend to 
stabilize the speculation?
    Ms. Borelli. Well that is the message you would be sending 
to the market in general, so yes.
    Mr. Johnson. OK. I have also heard it said this morning 
that this should not be a political issue, and I could not 
agree with you more. There have been failures throughout the 
years on the fact that we currently do not have a robust energy 
policy. The fact is, however, here we sit with this 
Administration with a Secretary of the Interior that has 
admitted in open testimony before this Committee that because 
oil is an international commodity America has no influence over 
the price of oil. Do you agree that America has no influence 
over the price of oil? What would happen if we increased our 
domestic production?
    Ms. Borelli. The price would go down.
    Mr. Johnson. The price would go down, I mean that is the 
law of supply and demand. We have also heard testimony from 
that same individual that they don't have a robust permitting 
process. Just a few short years ago they were approving permits 
in the 300s and then the year later in the 100s, now we are 
down into the simple double digits in terms of getting permits 
approved. Mr. Sloan talks about going after all of these 
different forms of energy, yet we don't see an energy policy by 
this Administration or by the Secretary of the Interior to go 
after that. Do you, do any of you see any evidence that this 
Administration is serious about developing a national energy 
policy?
    Ms. Borelli. This Administration is serious about 
developing natural resources in Brazil, but they are not 
serious about it here in our country because if they were we 
wouldn't have all these regulations and we wouldn't have the 
President actively, you know, calling the shots to reduce what 
we are capable of producing.
    Mr. Johnson. Ms. Borelli, you said it better than I could, 
thank you very much. My time is expired. Mr. Chairman, I yield.
    Mr. Southerland. Thank you very much. I now recognize the 
gentleman from South Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. Thank you, panel, for 
being here. And I apologize for coming in and out during the 
testimony, but when I serve on three different Committees and 
they are all going on at the same time as you can understand 
there is opportunity for me to do a lot today. But just want to 
ask rhetorically I guess to think about what $7 or $8 a gallon 
gasoline would mean to seniors and working families across this 
country.
    I can only imagine what $7 a gallon gasoline would do 
because I ran a small business for 16 years. And I remember in 
August of 2008 what $4.85 a gallon diesel fuel meant to my 
business. And we weren't a large business, we were a auction 
firm, we were running two trucks on the road. And I know what 
it meant to my overhead because I remember making the phone 
call to a gentleman that worked for me saying, we are staying 
home, we are not going to hit the road chasing auction deals 
like we had in the past, we are going to sit at home and we are 
going to call our clients and we are going to send emails and 
we are going to do things to save fuel.
    So I can only imagine what $7 and $8 a gallon diesel fuel 
or gasoline means to the American economy. But imagine this. 
Imagine a gentleman who was picked for a Secretary of the 
Department of Energy saying that he sees America experiencing 
just that, that we need to get used to a European style 
gasoline prices of $7 and $8 a gallon. That was his stated goal 
when he was Dr. Chu prior to being Secretary Chu, Secretary of 
the Department of Energy.
    And so it bothers me that we have someone in a leadership 
position who believes that Americans ought to pay what 
Europeans pay for gasoline, when you have heard numerous 
testimony and comments in here by Congressman in this Committee 
about domestic energy resources that we could be tapping to 
increase supply. Congressman Johnson from Ohio very 
articulately expressed those resources and talked about supply 
and demand so I am not going to rehash that, but it is a supply 
and demand issue.
    And I want to applaud this Committee and this House of 
Representatives for passing three bills that send a very clear 
signal to the marketplace, that we are going to be serious in 
the House of Representatives about meeting domestic energy 
needs, meeting increasing domestic energy productions whether 
it is in the Gulf of Mexico or whether it is on Federal lands. 
Because we understand that increased domestic supply will 
reduce the price at the pump for American families.
    There is no doubt that, we saw last week, Mr. Chairman, a 
15 cent decrease in the price of fuel I think directly 
attributable not only to the three bills that we passed out of 
the House but also the President getting the message and going 
on the air on Saturday morning after we passed those and saying 
that he thinks we ought to increase domestic energy supply as 
well. And so the message was sent clearly to the market, the 
speculators, OPEC, whoever you want to point to, that we were 
very serious about increasing domestic supply, and I think the 
market responds positively and we saw the price come down.
    If we do increase that supply, whether it is natural gas or 
any other hydrocarbons, I think you will see the market 
respond. I was in my home county last week during the 
constituent work week, and I went out to a gas station and 
spent an hour and a half talking to motorists that came in and 
were filling up their tanks. I helped them pump their gas while 
we carried on a conversation about the impact of rising fuel 
prices on their families, the impact of the rising fuel prices 
on their small businesses.
    And I was amazed that, one lady from Gray Court, South 
Carolina, she was expecting her fifth child, she works about 40 
miles away from where we were and her husband works in that 
town, they work opposite ends of the spectrum, they live 
halfway in between, they are spending over $200 a week in 
gasoline. And they have five children, they are having to make 
hard real life decisions about whether they are going to 
prioritize putting food on the table and clothes for their 
children or putting gasoline so that she and her husband can 
travel back and forth to work.
    One family had cut off the Internet and upset their kids, 
but they made that decision to take away that luxury because it 
is impacting their pocketbook. They are instead reaching in 
their pocketbook to take out a $20 bill to pay for that fuel or 
they are taking out a $50 bill to pay for that fuel. It is 
impacting. You know it, you are here today, you are providing 
that testimony, and we have to really be serious in this 
country.
    I believe in alternative fuels, don't get me wrong. I 
believe in a comprehensive energy policy for this nation 
anchored on the domestic energy resources that we have in the 
Gulf of Mexico, on the Outer Continental Shelf, all around this 
great land, and on Federal lands that have been taken off the 
table by this Administration for domestic production. And once 
we increase the supply, regardless of what world demand is, if 
we increase supply in this country you will see the price go 
down at the pump and it will impact positively this time the 
folks that you are here to represent. So thank you very much, 
and God bless you.
    Mr. Southerland. Thank you. I now recognize the gentleman 
from Texas, Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman. And I do appreciate 
each one of the witnesses. Mr. Sloan, thanks for being here. 
Ms. Borelli, I am really impressed with your knowledge and your 
reasoning ability, thank you so much. And, Mr. Martin, it is 
always a pleasure to see you anywhere and hear from you. And, 
Ms. Anderson, I have never met you before but I have eaten your 
food many times over the years and you all have fantastic 
seafood and sure want to try to keep you in business so I can 
come back from Texas to Mr. Southerland's district and enjoy 
some of the good food over there.
    You know, we have had hurricanes, disasters hit east Texas. 
And I have looked around as I have gone through when people 
have lost power, lost their electricity, everybody has wanted 
to find a hybrid generator, but there is no such thing. When 
they lose electricity if you don't have gasoline or you don't 
have diesel, you are not going to have electricity. And so 
electricity is a wonderful thing, but we have continued, 
particularly going back to President Clinton when he put 
perhaps our largest supply of coal off limits to being 
produced, that did help his friends in Indonesia that had coal 
but it sure didn't help American citizens.
    And as we have come forward, and I have just been amazed as 
I have been on this Committee now for six and a half years that 
when we lost the majority in November of '06 because we were 
rightly overspending and so it needed to change, not, people 
didn't know that the new majority would now take us to ten 
times, more than ten times the overspending that we had done 
from $160 billion to $1.7 trillion, but I have been amazed the 
last four and a half years that just month after month we put 
more and more of our resources off limits.
    You know, in the last term of Congress we even put what 
could have been our best source of uranium off limits for its 
production. And I heard a comment that, you know, referencing 
countries, some countries with far more resources than we have, 
yet from what I have heard in this Committee from experts on 
the different energy resources we have there is nobody in the 
world that has the resources we do when you combine coal, that 
we should require to be used cleanly, when you consider 
uranium, when you consider natural gas, especially since the 
new fracking methods have given us over 100 years of reserves.
    One party thought that the biggest natural gas reserves may 
be off the west coast of Florida, but that is off limits to be 
drilled. So it has just been staggering how we keep putting our 
energy resources off limits. And, Mr. Martin, I heard from an 
80-year-old lady when gas went to $4 a gallon who said she came 
into this world in a home that only had a wood stove and it 
looks like because of the prices we have created for energy by 
our failure to use our own resources, she may leave this world 
with a wood-burning stove. It is all she has got.
    It is interesting when you see that the Wall Street 
executives and their immediate family donate to Democrats 4 to 
1 over Republicans. Those rich people find high gas prices an 
inconvenience, but the people in my district, the working poor, 
it is life or death, keeping their job, having some way to 
live. So I appreciate you all being here, I just hope and pray 
that we will change this Administration's mind. I realize the 
President is only as good as the information he is given, and 
obviously he has been given a lot of false information.
    But we need to provide for those who make this country run 
and give them the freedom to choose what kind of lightbulb they 
want, what kind of resource or fuel they want to use. And I 
hope based on the testimony you have given we can keep 
restaurants and marinas in business, we can help seniors to 
live within their means and maybe give them better means as 
well. But I want to see this economy take off, so thank you all 
so much for coming today and giving us your perspective.
    Mr. Southerland. Thank you. I now recognize myself for five 
minutes. And first of all I want to thank all of the panelists 
here for coming and appearing before us today. Ms. Borelli, I 
wanted to ask you, we have all, well this is actually for all 
of you, but we have all talked about the need for a 
comprehensive energy policy going forward, I think that 
everyone would agree that when you say comprehensive that that 
includes all the pursuit of all of our natural resources in a 
responsible manner that is good for prices, that is good for 
jobs. But if we move forward with that comprehensive energy 
policy, Ms. Borelli, just very simple, this is not a 
complicated question, tell me how more production, domestic 
production, would affect American jobs?
    Ms. Borelli. Well what we need is the EPA to stop 
regulating and stop demonizing the fossil fuel industry so they 
can explore and develop, provide jobs, and continue to get the 
government the $86 million in revenue that they get on a daily 
basis.
    Mr. Southerland. Very good. And, Mr. Martin, similar, you 
know, and again as an advocate of that comprehensive, and I am 
assuming that the definition of comprehensive is still that it 
is a balanced policy to seek energy from all of our natural 
resources, unless someone has changed the definition of 
comprehensive and didn't send me an email, but how does that 
affect your members and the seniors that you know and meet 
around this country?
    Mr. Martin. Well thank you. Quite frankly our seniors, a 
lot of them they keep talking about the cars they drive, a lot 
of my seniors don't drive cars anymore, they can't afford it 
because of the high price of gas. And I would point out too, 
and I have to say this for Mr. Runyan, I testified up in 
Atlantic City a few years ago on the need to get on with our 
drilling, OCS and what have you, and also I grew up in Florida.
    And I was asked by Secretary Salazar would this impact the 
tourist industry, you know, these rigs off the coast of Florida 
and all that. And I said, well I don't know, it won't affect a 
lot of my seniors who can't get down to Florida that would. But 
he said, the thought of those rigs offshore of Florida, and so 
I had a 70-year-old Blackjack dealer from your state, from 
Atlantic City, African-American lady, she is in her 70s, she is 
one of my folks at 60 Plus, and she said to the Secretary, the 
fact is those rigs we are talking about 50 to 100 miles out, 
you know, we are not talking about a few miles off Ft. 
Lauderdale Beach where I grew up.
    In fact, she said, Mr. Martin, our old eyes maybe we can't 
see that far, but actually because of the curvature of the 
earth even with binoculars you can't see more than 10, 11, 12 
miles anyway. So that is a myth about the eyesore there. I had 
another 84-year-old down in Virginia Beach make somewhat the 
same statement, and she said, I have grown up in Virginia Beach 
all my life, I was married to a Navy man for 45 years, God rest 
his soul, he is gone. She said, I am still here though and to 
keep our young folks around here we need to get on with 
producing energy which will bring down the cost, it will 
provide jobs, et cetera.
    I love those seniors who come and talk about those things. 
And by the way too, this Marcellus Shale, you know, we are in 
our seventh year of production, we have enough natural gas now 
for a century or more, seventh year. I go back to the fact in 
1995 when President Clinton vetoed drilling on the ANWR the 
argument again being, well it would take ten years to get 
anything to market. Well that was 15 or more years ago. So we 
did the math, if you had a billion barrels of oil a day for the 
next five or six years that would be over 2 billion barrels of 
oil, I think that has to impact the cost to everybody, not just 
to seniors.
    Mr. Southerland. Mr. Martin, thank you. Ms. Anderson, thank 
you for your testimony today, and I just I thank you for what 
you do and your business does in our community. So tell me, the 
same question, if we increase domestic oil drilling as a part 
of a comprehensive energy policy going forward what is that 
going to mean to boats and individuals that make their living 
on the water down in our neck of the woods?
    Ms. Anderson. I believe it will make quite a bit of 
difference. I have prepared this gasoline chart, fuel chart, 
where we have, what number of gallons we have sold over the 
last, you know, several years at the marina. And the difference 
between 2006 and 2008 was a third less in 2008 number of 
gallons sold at the marina. So we are talking about 100,000 
gallons less sold. So the impact is significant most 
definitely, and that is just one marina.
    I have information on the other two marinas in our area 
just in Grand Lagoon, and they also show that there are one-
third fewer gallons sold, and that means that those boats are 
not out on the water. And, of course, it always is across the 
board it affects the tourism industry in our area because 
according to our TDC Director, Dan Row, he said that tourism in 
that year, 2008, was down 15 percent in the Bay County area 
alone, which shows, you know, the impact on the tourism 
industry.
    Mr. Southerland. Mr. Sloan, we certainly--thank you, Ms. 
Anderson. And in the pursuit of fairness, I want to also give 
you the same question. I know we are overtime, so please be 
brief. But if we pursue that comprehensive energy policy, 
shouldn't that be a part of that comprehensive policy going 
forward?
    Mr. Sloan. Reality says it will.
    Mr. Southerland. I am sorry?
    Mr. Sloan. Reality says it will.
    Mr. Southerland. OK.
    Mr. Sloan. But if it does, it will keep us hooked on a 
commodity that is dominated and controlled by governments that 
do not like us and do not have our best interests at heart.
    Mr. Southerland. So define comprehensive for me.
    Mr. Sloan. We have an abundant resource in oil, it will 
definitely include that.
    Mr. Southerland. OK.
    Mr. Sloan. But if it is founded in it, it puts our national 
security at risk.
    Mr. Southerland. So you are saying that a comprehensive 
plan should not include oil, is that kind of?
    Mr. Sloan. I am saying it shouldn't be based in oil.
    Mr. Southerland. OK. But if it is comprehensive as Webster 
would define comprehensive, then it is going to have to be a 
part of the plan going forward?
    Mr. Sloan. That is reality.
    Mr. Southerland. That would be common sense then, reality 
is common sense. So thank you very much. And I didn't get to 
say this earlier, but thank you for your service to our 
country. Mr. Martin, you as well. Thank you very much. I ask 
for unanimous consent to submit for the record an article from 
the Chicago Tribune titled ``High gas prices change the way 
unemployed look for jobs.'' And last I just want to thank the 
panel for their testimony. Members of the Committee may have 
additional questions for the record and I ask to respond to 
these in writing. If there is no further business, then without 
objection, the Subcommittee stands adjourned.
    [Whereupon, at 12:18 p.m., the Committee was adjourned.]
    [The article submitted for the record follows:]
High gas prices change the way the unemployed look for jobs
May 22, 2011; By Gerry Smith, Tribune reporter

    Before a recent job interview, Alicia Madison climbed into her 2001 
Ford Explorer and realized her gas tank was empty, just like her bank 
account.
    Unable to afford gas for the 25-mile round trip from her Glen Ellyn 
home to the Naperville business, Madison was forced to reschedule. She 
now relies on gas vouchers issued by a nonprofit agency to drive to 
interviews.
    Madison, a certified nursing assistant unemployed three months, is 
desperate to return to work, but not desperate enough to take a job too 
far from home with gas prices at record highs.
    ``I have to be conscious of where I'm looking and how far it's 
going to be,'' said Madison, 23, a single mother on food stamps. ``I 
don't want to work just to pay for gas.''
    Her dilemma underscores the problem that steep gas prices have 
created for the unemployed: They need income to fill their tank but 
can't afford to take jobs with long commutes.
    Some job seekers say they are more selective now, curtailing face-
to-face networking and ignoring some opportunities based on the high 
transportation costs.
    Gas prices have continued to climb in the Midwest recently due to 
high oil costs, oil distribution problems and refinery shutdowns. 
Monthly average prices for gasoline in Illinois reached $4.26, 
according to AAA Chicago's most recent Fuel Gauge Report, issued last 
week. The Illinois average for regular unleaded gasoline has increased 
24 cents during the last month and $1.21 over the last year.
    In Cook County, regular unleaded gasoline averages $4.50 a gallon, 
up 30 cents from last month and $1.29 higher than last year. In DuPage 
County, regular unleaded averages $4.36 per gallon, a 28-cent increase 
from April and up $1.24 from last year.
    Meanwhile, the job market seems to be improving. The unemployment 
rate in the Chicago area fell to 8.7 percent in April, the lowest since 
February 2009, according to the Illinois Department of Employment 
Security.
    There are more jobs out there, but if they are far from home and 
fuel prices remain high, are they worth taking?
    It's an understandable question, particularly for those looking for 
jobs that would pay around minimum wage, said Ian Savage, a 
transportation economist at Northwestern University.
    ``If you have to work two hours just to pay for the gas to and from 
work, that's a big disincentive,'' Savage said. ``It certainly narrows 
down your job search.''
    For people like Chicagoan Nicole Harris, 42, who lost her job more 
than a year ago, soaring fuel costs have changed the calculus of 
unemployment. Harris lives in Hyde Park, and when she sees job openings 
now, she asks herself a series of questions: How much am I going to 
make? How much will I spend on transportation? Can I commute, or will I 
need to relocate?
    Most of the jobs in her field--instructional design--are located in 
suburbs. Since losing her job, she has subsisted on contract work, but 
her last short-term position barely covered the cost of the commute, 
she said.
    ``I need to work, so I'm basically willing to go anywhere,'' Harris 
said. ``But will I be able to make any money if I take the position? By 
the time you pay for gas, that's half of what you work for an hour.''
    The impact of high gas prices on employment decisions is 
particularly relevant in the Chicago area, where jobs have increasingly 
shifted to outlying suburbs. These are often inaccessible by mass 
transit, putting more pressure on transportation costs, according to 
the Center for Neighborhood Technology.
    Some job seekers have started narrowing their search to companies 
along train lines, said Joy Maguire-Dooley, director of youth and 
family services for Lisle Township.
    ``In the past, they would say, 'If this is a good job, I'll go 
anywhere,''' she said. ``Now, if they live in Northbrook, they won't 
apply for jobs in Naperville because there is a commute.''
    On the flip side, some companies are rejecting applicants who live 
more than 25 miles from the office out of fear they will quit because 
of high gas costs, said Maguire-Dooley, who advises job seekers to 
remove their address from their resume to avoid being weeded out.
    After being unemployed for eight months, Paul Minch, 46, of Downers 
Grove, said he would still take a job almost anywhere but admitted that 
rising gas prices have changed his networking strategy.
    He has scaled back on going to weekly job clubs and decided against 
a recent job fair at his alma mater, DePaul University, because it was 
too far from home. Instead, Minch has embraced social networking, using 
Twitter and Skype to connect with people in his field of information 
technology.
    ``The conventional wisdom has always been to get out and network 
with people over lunch--wherever they might be,'' he said. ``Now, with 
gas prices higher, I'm not going to pay that much to drive all the way 
over there. Why not meet on Skype so you don't have to leave your 
home?''

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
